App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JAMES COURTNEY;
CLIFFORD COURTNEY,
Plaintiffs-Appellants,
v.

No. 19-35100
D.C. No. 2:11-cv00401-TOR
MEMORANDUM*

DAVID DANNER, Chairman and (Filed Apr. 15, 2020)
Commissioner, in his official
capacity as officer and member
of the Washington Utilities and
Transportation Commission;
ANN E. RENDAHL, Commissioner, in her official capacity as
officer and member of the
Washington Utilities and Transportation Commission; JAY
BALASBAS, Commissioner, in
his official capacity as officer and
member of the Washington Utilities and Transportation Commission; MARK JOHNSON, in his
official capacity as executive director of the Washington Utilities
and Transportation Commission,
Defendants-Appellees.

* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.

App. 2
Appeal from the United States District Court
for the Eastern District of Washington
Thomas O. Rice, Chief District Judge, Presiding
Submitted March 30, 2020**
Seattle, Washington
Before: McKEOWN, N.R. SMITH, and NGUYEN, Circuit Judges.
James and Clifford Courtney appeal the district
court’s order dismissing their complaint against the
executive director and commissioners of the Washington Utilities and Transportation Commission (collectively, the “WUTC”). We have jurisdiction under 28
U.S.C. § 1291. Reviewing de novo, see Courtney v. Goltz,
736 F.3d 1152, 1157 (9th Cir. 2013), we affirm.
The Courtneys seek to provide intrastate boat
transportation on Lake Chelan for certain customers
of Stehekin-based businesses. They contend that the
WUTC’s classification of their proposed services as a
“public” ferry requiring a certificate of public convenience and necessity (“PCN certificate”), and its refusal
to issue them one, violate their right under the Fourteenth Amendment’s Privileges or Immunities Clause
“to use the navigable waters of the United States.” The
Slaughter-House Cases, 83 U.S. (16 Wall.) 36, 79 (1872).

** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App. 3
“[T]he Privileges or Immunities Clause protects
only those rights ‘which owe their existence to the Federal government, its National character, its Constitution, or its laws.’ ” McDonald v. City of Chicago, 561
U.S. 742, 754 (2010) (quoting The Slaughter-House
Cases, 83 U.S. at 79). The right to use the navigable
waters of the United States is a national right because
such waters are channels of interstate and foreign
commerce, and the Constitution delegates power over
those areas to Congress. See Braniff Airways v. Neb.
State Bd. of Equalization & Assessment, 347 U.S. 590,
597 (1954) (explaining that Congress’s commerce
power is “the . . . constitutional basis which, under decisions of the Supreme Court, has given rise to a public
easement of navigation in the navigable waters of the
United States”).
Historically, states—not the federal government—
regulated ferry franchises with the power to exclude a
franchisee’s potential competitors from the market.
See Conway v. Taylor’s Ex’r, 66 U.S. (1 Black) 603, 635
(1861) (“[T]he States have [always] exercised the
power to establish and regulate ferries; Congress
never.”). An intrastate ferry franchise is a property
right, and “[r]ights of commerce give no authority to
their possessor to invade the rights of property.” Id. at
634; see also Merrifield v. Lockyer, 547 F.3d 978, 983
(9th Cir. 2008) (holding that state licensing requirement impeding state resident from practicing particular profession within the state does not implicate the
Privileges or Immunities Clause, which in general
“bar[s] . . . claims against ‘the power of the State

App. 4
governments over the rights of [their] own citizens’ ”
(quoting The Slaughter-House Cases, 83 U.S. at 77)).
The Courtneys’ proposed ferry services, whether
classified as “public” or “private,”1 do not involve interstate or foreign commerce. Therefore, the WUTC’s determination that the proposed services would interfere
with the current ferry operator’s franchise rights does
not affect the Courtneys’ privileges or immunities as
citizens of the United States.
AFFIRMED.

1
We do not decide whether, for federal constitutional purposes, the Courtneys’ proposed services should be classified as
“private” and thus distinguishable from the proposed service at
issue in their prior appeal. See Courtney, 736 F.3d at 1162 (“[T]he
Privileges or Immunities Clause of the Fourteenth Amendment
does not protect a right to operate a public ferry on Lake Chelan. . . .”). Nor do we decide the relevance to this question, if any,
of the WUTC’s classification of the proposed services as “public”
under the state law requiring PCN certification. See Wash. Rev.
Code § 81.84.010(1).

App. 5
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WASHINGTON
JAMES COURTNEY and
CLIFFORD COURTNEY,

NO. 2-11-CV-0401TOR

Plaintiffs,

ORDER
GRANTING
v.
DEFENDANTS’
DAVID DANNER, chairman and RENEWED
Commissioner; ANN RENDAHL, MOTION TO
commissioner; and JAY
DISMISS
BALASBAS, commissioner, in
their official capacities as officers (Filed Jan. 3, 2019)
and members of the Washington
Utilities and Transportation
Commission; and MARK JOHNSON, in his official capacity as
executive director of the Washington Utilities and Transportation Commission,
Defendants.
BEFORE THE COURT is the Defendants’ Renewed Motion to Dismiss. ECF No. 59. The Court heard
oral argument on November 20, 2018. Michael E. Bindas appeared on behalf of Plaintiffs James Courtney
and Clifford Courtney. Assistant Attorney General Jeff
Roberson appeared on behalf of the Defendants. The
Court has reviewed the record and files herein, and is
fully informed.

App. 6
BACKGROUND
Plaintiffs James Courtney and Clifford Courtney
(“the Courtneys”) challenge the constitutionality of
Washington’s requirement that an operator of a commercial ferry obtain a certificate of “public convenience
and necessity” (“PCN”) from the Washington Utilities
and Transportation Commission (“WUTC”) before
commencing operations. The Courtneys initially filed
this lawsuit on October 19, 2011, asserting two claims
under the Privileges or Immunities Clause of the Fourteenth Amendment. ECF No. 1. Currently, only the
Courtneys’ second claim remains pending before the
Court. Specifically, the Courtneys assert that the PCN
requirement, as applied to their proposed ferry service
on Lake Chelan “for customers or patrons of specific
businesses or groups of businesses,” violates their right
“to use the navigable waters of the United States” under the Fourteenth Amendment. ECF No. 1 at 34-38.
Defendants move to dismiss the Courtneys’ second
claim pursuant to Federal Rule of Civil Procedure
12(b)(6). ECF No. 59. Defendants argue that dismissal
is appropriate because the Courtneys do not have a
Fourteenth Amendment right to operate a commercial
ferry service and, therefore, they fail to state a claim
upon which relief can be granted. Id. at 8.
FACTS
As the Courtneys observe, the Court is well-versed
in the facts and procedural history of this case, which
have been summarized at length by not only this

App. 7
Court, but also the United States Court of Appeals for
the Ninth Circuit and Division Three of the Washington Court of Appeals. The following facts are drawn
from the Courtneys’ Complaint, as well as the prior
federal and state court decisions, and are accepted “as
true” for purposes of this motion. Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 556 (2007).
The Courtneys are residents of Stehekin, Washington, a small unincorporated town at the northwest
end of Lake Chelan. The Courtneys and their families
own several businesses in Stehekin, including two float
plane companies, Stehekin Valley Ranch, Stehekin
Outfitters, Stehekin Log Cabins, and Stehekin Pastry
Company. ECF No. 1 at 15. Stehekin is a popular tourist destination, particularly during the summer
months. However, access to the town is limited: the
only means of accessing Stehekin is by boat, seaplane,
or on foot. Id. at 5. Currently, most tourists and residents reach Stehekin by way of a public ferry operated
by the Lake Chelan Boat Company, which has operated
a year-round commercial ferry service on Lake Chelan
since 1929. Id. at 7.
The State of Washington regulates commercial
public ferries by statute. In 1927, the Washington legislature enacted a law that conditioned the right to operate a ferry service upon certification that such
service was required by “public convenience and necessity.” Laws of 1927, ch. 248, § 1. In its current form,
RCW 81.84.010 provides in relevant part:

App. 8
A commercial ferry may not operate any vessel or ferry for the public use for hire between
fixed termini or over a regular route upon the
waters within this state . . . without first applying for and obtaining from the commission
a certificate declaring that public convenience
and necessity require such operation.
RCW 81.84.010(1). In order to obtain a PCN certificate,
a potential ferry operator must prove that its proposed
operation is required by “public convenience and necessity,” and that it “has the financial resources to operate the proposed service for at least twelve
months[.]” RCW 81.84.020(1)-(2). If the territory in
which the applicant desires to set up operation is already being served by a commercial ferry company, no
PCN certificate may be granted unless the applicant
proves that the existing certificate holder “has failed or
refused to furnish reasonable and adequate service,
has failed to provide the service described in its certificate or tariffs after the time allowed to initiate service
has elapsed, or has not objected to the issuance of the
certificate as prayed for.” RCW 81.84.020(1).
Since 1927, only one PCN certificate has been issued for providing ferry services on Lake Chelan. ECF
No. 35 at 6. The WUTC’s predecessor issued a PCN certificate to the Lake Chelan Boat Company in 1929 and,
since that time, the Lake Chelan Boat Company has
successfully protected its exclusivity. ECF No. 1 at 7.
At least four potential ferry operators have applied for
a PCN certificate over the last sixty years, but all were

App. 9
denied by the WUTC after Lake Chelan Boat Company
objected to the applications. Id. at 13.
The Courtneys would like to establish a competing
ferry service on Lake Chelan. In fact, they have unsuccessfully attempted to operate their own Stehekinbased commercial ferry over the past two decades. In
1997, James Courtney applied for a PCN certificate to
operate a commercial ferry out of Stehekin. ECF No. 1
at 16. However, the Lake Chelan Boat Company objected, and the WUTC ultimately denied James’s application. Id. at 16-18. In 2006, James explored the
possibility of providing a Stehekin-based on-call boat
service, which he believed fell within the “charter service” exemption to the PCN requirement. Id. at 19. The
WUTC initially opined that a PCN certificate would
not be needed for the proposed on-call boat service,
then reversed course and informed James that a PCN
certificate was needed, before reversing course yet
again and advising James that the proposed service
would be exempt from the PCN requirement. Id. at 1920. Ultimately, no formal decision was ever rendered
as to the proposed on-call service.
In 2008, Clifford Courtney contacted Defendant
David Danner seeking guidance as to whether two alternative boat transportation services would require a
PCN certificate. Id. at 22. The first proposal was a
“charter” service whereby Clifford would hire a private
boat to transport patrons of his lodging and river rafting businesses between Chelan and Stehekin. The second proposal was a service whereby Clifford would
“shuttle” his customers between Chelan and Stehekin

App. 10
in his own private boat. Defendant Danner responded
that, in his opinion, both services would require a formal certificate. Specifically, Defendant Danner opined
that even private boat transportation, offered exclusively to paying customers of Clifford’s lodging and
river rafting businesses, would be service “for the public use for hire” for which a formal certificate was required pursuant to RCW 81.84.010. Defendant Danner
noted, however, that his opinion was merely advisory
in nature and that Clifford was free to seek a formal
ruling on the issue from the full Commission. ECF No.
1 at 24.
In February 2009, Clifford contacted the Governor
of the State of Washington and several state legislators
regarding the PCN requirement. Id. at 25. In response,
the state legislature directed the WUTC to conduct a
study on the regulation of commercial ferry services on
Lake Chelan. The WUTC delivered a formal report to
the state legislature in January 2010. See WUTC, Appropriateness of Rate and Service Regulation of Commercial Ferries Operating on Lake Chelan: Report to
the Legislature Pursuant to ESB 5894, January 14,
2010 (available at https://app.leg.wa.gov/ReportsToThe
Legislature/Home/GetPDF?fileName=Stehekin%20
Report%20Final_a25a3eb0-cd39-4779-9c08-ecdec4c084
a8.pdf ). In the report, the WUTC concluded that Lake
Chelan Boat Company was providing satisfactory service and recommended that there be no change to the
existing laws and regulations. The WUTC noted, however, that there might be flexibility under the existing
law to permit some competition by exempting certain

App. 11
services from the PCN certificate requirement, including the private carrier exemption. As the WUTC explained,
[T]here may be flexibility within the law for
the Commission to take an expensive interpretation of the private carrier exemption
from commercial ferry regulation. For example, the Commission might reasonably conclude that a boat service offered on Lake
Chelan (and elsewhere) in conjunction with
lodging at a particular hotel or resort, and
which is not otherwise open to the public, does
not require a certificate under RCW 81.84.
Report to Legislature at 15.
In 2011, the Courtneys filed suit in this Court
against the WUTC and various commissioners and directors in their official capacities, seeking declaratory
and injunctive relief pursuant to 42 U.S.C. § 1983 and
28 U.S.C. § 2201. ECF No. 1. As noted, the Courtneys
asserted two causes of action under the Privileges or
Immunities Clause of the Fourteenth Amendment.
First, they alleged the State of Washington’s PCN requirement infringed upon their right to provide a commercial ferry service open to the general public on
Lake Chelan. Id. at 30-33. Second, they claimed that
the PCN requirement also infringed upon their right
to provide a private ferry service for patrons of their
Stehekin-based businesses. Id. at 34-38.
Defendants moved to dismiss the Complaint pursuant to Federal Rule of Civil Procedure 12(b)(6). This
Court dismissed the Courtneys’ first claim—

App. 12
challenging the constitutionality of the PCN requirement as applied to the provision of a public ferry service on Lake Chelan—with prejudice, concluding that
it was still unclear whether the “right to use the navigable waters of the United States” was “truly a recognized Fourteenth Amendment right,” and, even
assuming it was, it did not extend to protect the right
“to operate a commercial ferry service open to the public.” ECF No. 22 at 14-17. The Court dismissed the
Courtneys’ second claim—challenging the constitutionality of the PCN requirement as applied to the provision of boat transportation services on Lake Chelan
for customers or patrons of specific businesses—without prejudice, holding that the Courtneys lacked
standing, their claim was unripe, and that the Court
would abstain from deciding the constitutional question under the Pullman abstention doctrine (Railroad
Comm’n of Texas v. Pullman Co., 312 U.S. 496 (1941).
Id. at 17-23.
In dismissing the Courtneys’ second claim, the
Court noted that neither the WUTC nor any other
state adjudicative body had definitely ruled that the
Courtneys’ proposed “private ferry service would in
fact require a PCN certificate under RCW 81.84.010.
Id. at 19. In light of the lingering uncertainty about
whether the Courtneys would be required to obtain a
PCN certificate to operate their proposed private ferry
service, the Court dismissed the Courtneys’ second
claim “without prejudice to afford the WUTC or the
Washington state courts an opportunity to resolve this
unsettled question of state law.” Id. at 22-23.

App. 13
On December 2, 2013, the Ninth Circuit affirmed
the dismissal of the Courtneys’ first claim but vacated
the dismissal of the second claim. Courtney v. Goltz,
736 F.3d 1152 (9th Cir. 2013). Regarding the second
claim, the Ninth Circuit concluded that the exercise of
Pullman abstention was proper, but this Court “should
have retained jurisdiction over the case pending resolution of the state law issues, rather than dismissing
the case without prejudice.” Id. at 1164. Accordingly,
the Ninth Circuit vacated the dismissal of the second
claim and remanded to this Court with instructions to
retain jurisdiction over Defendants’ second constitutional claim pending an authoritative construction of
the phrase “for the public use for hire” by the WUTC or
the Washington state courts. ECF Nos. 35; 36. On remand, consistent with the Ninth Circuit’s instructions,
this Court issued an order retaining jurisdiction over
the Courtneys’ second constitutional claim and staying
the case pending action by the WUTC or the Washington courts. ECF No. 40.
On March 3, 2014, the Courtneys petitioned the
United States Supreme Court for certiorari to review
the disposition of their first claim only. The Supreme
Court denied certiorari on the Courtneys’ first claim on
June 2, 2014. Courtney v. Danner, 572 U.S. 1149 (2014).
Thereafter, the Courtneys petitioned the WUTC
for a declaratory order as to whether a PCN certificate
was required to provide the “private” ferry service at
issue in their second claim. ECF No. 52 at 4. The
WUTC initially declined to enter an order on the
ground that the Courtneys’ petition lacked sufficient

App. 14
information and operational details. The Courtneys
then filed a second petition setting forth five proposed
ferry services, which they contended were not “for the
public use,” as contemplated by RCW 81.84.010(1).
Courtney v. Wash. Utils. & Transp. Comm’n, 3 Wash.
App. 2d 167, 172-73 (2018). As described in their petition, the proposed services would operate between Memorial Day and early October each year, and charge a
flat rate of $37 per adult passenger for a one-way ticket
or $74 for a roundtrip ticket. Id. at 173. Each of the
proposed services would be owned by James and/or
Clifford Courtney. The primary difference among the
proposed services is the scope of passengers the boat
would carry:
Proposal 1 (Lodging Customers of Stehekin Valley
Ranch)—Passengers would be limited to persons
with confirmed reservations to stay overnight at
Stehekin Valley Ranch, owned by Clifford Courtney and his wife.
Proposal 2 (Lodging Customers and Customers of
Other Activities Offered at Stehekin Valley
Ranch)—In addition to persons with reservations
to stay at the ranch, passengers would include anyone with reservations to participate in any of the
activities the ranch offers, including activities provided by Stehekin Outfitters, run in part by
Clifford Courtney’s son.
Proposal 3 (Customers of Courtney Family-owned
Businesses)—Passengers would be limited to anyone with reservations at any business owned by
Clifford or James Courtney or their extended

App. 15
family, including but not limited to the Stehekin
Valley Ranch.
Proposal 4 (Customers of Stehekin-Based Businesses)—Passengers could be anyone with reservations at any Stehekin-based businesses that
want to use the service, including but not limited
to Courtney family-owned businesses.
Proposal 5 (Charter by Stehekin-based Travel
Company)—Passengers would be restricted to persons who have purchased a travel package from a
Stehekin-based travel agency that is not affiliated
with the Courtneys but would charter the boat
from the Courtneys.
Id. at 173-74.
The WUTC issued a declaratory order concluding
that the Courtneys were required to first obtain a PCN
certificate before operating any of their five proposed
ferry services. The WUTC noted that the only legal issue was whether the proposed services would operate
“for the public use” within the meaning of RCW
81.84.010(1). Id. at 174. Based on the plain language
of the statute, the WUTC construed the phrase “for the
public use” as meaning “accessible to or shared by all
members of the community.” Id. at 175. The WUTC interpreted the term “community” to mean “a body of individuals organized into a unit” or “linked by common
interests.” Id. Combining these definitions, the WUTC
concluded that a commercial ferry operator must obtain a PCN certificate when the ferry “is accessible to
all persons that are part of a group with common interests.” Id.

App. 16
The Courtneys argued that the proposed services
were not for the public use because ferry services
would be limited to customers of one or more particular
Stehekin businesses. The WUTC disagreed, noting
that the United States Supreme Court had rejected a
similar argument in Terminal Taxicab Co. v. Kutz, 241
U.S. 252 (1916). Consistent with the Terminal Taxicab
decision, the WUTC concluded that limiting services to
persons who are demonstrated customers of specific
businesses would not remove the services’ essential
public character. Courtney, 3 Wash. App. 2d at 175.
The Courtneys petitioned the Chelan County Superior Court for judicial review of the WUTC’s declaratory order. Id. at 176. The trial court affirmed the
agency’s decision and the Courtneys appealed to Division Three of the Washington Court of Appeals. Id.
On April 3, 2018, the Washington Court of Appeals
affirmed the trial court and explicitly adopted the
WUTC’s definition of “for the public use” as applying to
subsets of the public. Id. at 181-82. In concluding that
the WUTC’s definition was correct, the Court of Appeals explained that “the public is free to visit Stehekin” and “[l]imiting service to guests of one or more
Stehekin businesses does not strip the proposed ferry
service of its public character.” Id. at 182. Thus, the
Court of Appeals held that “the WUTC’s rule is correct
and consistent with the legislative intent of RCW
81.84.010(1).” Id.
The Courtneys then petitioned the Washington
Supreme Court for discretionary review on May 2,

App. 17
2018. On August 8, 2018, the Washington Supreme
Court denied review. Courtney v. Wash. Utils. &
Transp. Comm’n, 191 Wash.2d 1002 (2018).
After both the WUTC and the Washington courts
definitively concluded that the PCN requirement does,
in fact, apply to the Courtneys’ proposed “private” ferry
service, the Courtneys moved this Court to dissolve the
stay and reopen their case “to afford the Courtneys the
opportunity to litigate their second Privileges or Immunities Clause claim.” ECF No. 52 at 5. The Court
lifted the stay and reopened this case on September 13,
2018. ECF No. 56 at 2. As before, Defendants again
move to dismiss the Courtneys’ remaining claim under
Federal Rule of Civil Procedure 12(b)(6).
DISCUSSION
A motion to dismiss pursuant to Federal Rule of
Procedure 12(b)(6) “tests the legal sufficiency of a
[plaintiff ’s] claim.” Navarro v. Block, 250 F.3d 729, 732
(9th Cir. 2001). To survive such a motion, a plaintiff
must allege facts which, when taken as true, “state a
claim to relief that is plausible on its face.” Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009) (quotation and citation
omitted). In order for a plaintiff asserting a cause of
action under 42 U.S.C. § 1983 to satisfy this standard,
he or she must allege facts which, if true, would constitute a violation of a right guaranteed by the United
States Constitution. Balistreri v. Pacifica Police Dept.,
901 F.2d 696, 699 (9th Cir. 1988). Similarly, a plaintiff
seeking declaratory relief under 28 U.S.C. § 2201 must

App. 18
allege facts which, if true, would violate federal law.
See Skelly Oil Co. v. Phillips Petroleum Co., 339 U.S.
667, 672 (1950) (holding that Declaratory Judgment
Act did not expand subject-matter jurisdiction of federal courts). As discussed below, Plaintiffs fail to satisfy
these standards.
A. Plaintiffs’ Second Cause of Action: Operation of a Private Ferry Service to Patrons of Stehekin-Based Businesses
When this Court initially dismissed the Courtneys’ constitutional claims in 2011, no federal court
had ever directly examined the “right to use the navigable waters of the United States,” as referenced by the
Supreme Court in the Slaughter-House Cases, 83 U.S.
(16 Wall.) 36, 79-80 (1872). In the absence of applicable
precedent, this Court looked to the Slaughter-House
decision, as well as the history and purpose of the Privileges or Immunities Clause, for guidance in defining
the “right to use the navigable waters of the United
States” and determining whether the State of Washington’s PCN requirement infringed upon the right.
Assuming the Fourteenth Amendment did in fact protect “the right to use the navigable waters of the
United States,” this Court concluded that the right did
not extend to operating a commercial ferry open to the
public on Lake Chelan. ECF No. 22 at 17. Particularly
relevant here, this Court expressly rejected the Courtneys’ argument that the Privileges or Immunities
Clause was designed to protect quintessentially economic rights, and determined that using the navigable

App. 19
waters of the United States “in the manner the Courtneys have proposed—i.e., to operate a competing commercial ferry business—is one of the ‘fundamental’
rights conferred by state citizenship.” Id. at 16 (emphasis in original).
On appeal, the Ninth Circuit agreed that “even if
the Privileges or Immunities Clause recognizes a federal right ‘to use the navigable waters of the United
States,’ the right does not extend to protect the Courtneys’ use of Lake Chelan to operate a commercial public ferry.” Courtney, 736 F.3d at 1158. In reaching this
holding, the Ninth Circuit defined for the first time the
“right to use the navigable waters of the United
States,” as the phrase had “yet to be interpreted by a
single federal appellate court in the privileges or immunities context.” Id. at 1159. According to the Ninth
Circuit, “the right to use the navigable waters of the
United States” is “a right to navigate the navigable waters of the United States,” id. at 1160 (emphasis in
original), not a right to pursue economic opportunity on
the navigable waters of the United States. Based on
this interpretation of the phrase, the Ninth Circuit
held that “the Privileges or Immunities Clause of the
Fourteenth Amendment does not protect a right to operate a public ferry on Lake Chelan,” and explained
what this meant for the Courtneys’ first constitutional
claim:
At the end of the day, the state legislation the
Courtneys challenge is narrow in scope,
merely restricting the operation of commercial public ferries to those who obtain a PCN

App. 20
certificate. The PCN requirement does not
constrain the Courtneys from traversing Lake
Chelan in a private boat for private purposes.
Nor does it affect their ability to operate a
commercial freight transportation service. For
that matter, the Courtneys are free to operate
a commercial ferry service so long as they apply for and obtain a PCN certificate.
Id. at 1162 (emphasis added, citations omitted).
Here, the Courtneys argue that the Ninth Circuit’s
holding has no bearing on the success of their second
claim because the proposed ferry service at issue here
“involves only transportation for customers of a particular business” rather than a “commercial public ferry.”
ECF No. 60 at 4. According to the Courtneys, while the
Ninth Circuit’s decision conclusively establishes that
the right “to use the navigable waters of the United
States” does not include a right to operate a commercial public ferry on Lake Chelan, the question remains
as to whether the right extends to the private boat
transportation services at issue in their second claim.
Though the Courtneys describe the proposed ferry
service at issue in their second claim as a “private” boat
transportation service, the Court cannot ignore the
fact that both the WUTC and the Washington courts
have definitely concluded that the proposed “private”
ferry service is in fact a commercial public ferry service
under Washington law. As the Washington Court of Appeals observed, “[l]imiting service to guests of one or
more Stehekin businesses does not strip the proposed
ferry service of its public character.” Courtney, 3 Wash.

App. 21
App. 2d at 182. Thus, the Court agrees with Defendants that, regardless of the label the Courtneys choose
to affix to the ferry service at issue in their second
claim, at the end of the day it is a commercial public
ferry service that they seek to provide.
Thus, like their first claim, the actual privilege at
stake here is “a ferry operation privilege, not a broad
navigation privilege.” Courtney, 736 F.3d at 1160. The
Courtneys are not merely seeking to “travers[e] Lake
Chelan in a private boat for private purposes,” nor are
they being prevented from doing so. Id. at 1162. Instead, the Courtneys simply desire to operate a commercial ferry service for a subset of the public, their
customers. As the Ninth Circuit explained, albeit in
the context of the Courtneys’ first claim,
Here, it is clear that the Courtneys wish to do
more than simply navigate the waters of Lake
Chelan. Indeed, they are not restrained from
doing so in a general sense. Rather, they claim
the right to utilize those waters for a very specific professional venture. While navigation of
Lake Chelan is a necessary component of the
Courtneys’ proposed activity, it is neither sufficient to achieve their purpose nor the cause
of their dissatisfaction . . . Were navigation all
the Courtneys wished to do, they would not
need the WUTC’s permission and this dispute
would never have arisen.
Id. at 1160. This logic applies with equal force to the
Courtneys’ second claim. Accordingly, the Court concludes that the Courtneys do not have a Fourteenth

App. 22
Amendment right to operate a commercial ferry service open to a subset of the public on Lake Chelan.
In their response to Defendants’ renewed motion
to dismiss, the Courtneys devote fifteen page of their
twenty-page brief to convincing this Court that the
right to “use the navigable waters of the United States”
encompasses “a right to use navigable waters in pursuit of a livelihood.” ECF No. 60 at 7-21. In those fifteen
pages, much ink is spilled in an effort to explain “[t]he
link between national citizenship and use of the navigable waters in economic activity,” and why “it is inconceivable that Slaughter-House did not intend the right
to use the navigable waters of the United States to encompass use in the pursuit of a livelihood.” Id. at 1819, 21. The Courtneys assert that the fact that “they
wish to exercise the [“right to use the navigable waters
of the United States”] in an economic pursuit only
strengthens their claim.” Id. at 7.
However, this argument has previously been rejected by this Court and the Ninth Circuit. In holding
that “the right to use the navigable waters of the
United States” did not extend to operating a commercial public ferry, this Court explicitly rejected “the
Courtneys’ assertions that the Privileges or Immunities Clause was designed to protect quintessentially
economic rights.” ECF No. 22 at 15 (emphasis in original). Likewise, recognizing that the Courtneys’ proposed commercial ferry service was an economic
pursuit, the Ninth Circuit explained that economic
rights are not generally protected by the Privileges or
Immunities Clause:

App. 23
Further, the driving force behind this litigation is the Courtneys’ desire to operate a particular business using Lake Chelan’s
navigable waters—an activity driven by economic concerns. We have narrowly construed
the rights incident to United States citizenship enunciated in the Slaughter-House
Cases, particularly with respect to regulation
of intrastate economic activities.
Courtney, 736 F.3d at 1160-61. In short, contrary to the
Courtneys’ contentions, the economic purpose of the
proposed ferry service at issue cuts against, rather
than strengthens, their case.
Because the Fourteenth Amendment does not protect a right to operate a public ferry on Lake Chelan,
the Court concludes the Courtneys’ remaining claim
fails to allege the deprivation of a right protected by
the United States Constitution. Accordingly, the Courtneys’ second claim must be dismissed.
ACCORDINGLY, IT IS HEREBY ORDERED:
1.

Defendants’ Renewed Motion to Dismiss
(ECF No. 59) is GRANTED.

2.

Plaintiffs’ second cause of action is DISMISSED with prejudice.

The District Court Executive is hereby directed to
enter this Order and Judgment accordingly, provide
copies to counsel, and close the file.

App. 24
DATED January 3, 2019.
[SEAL]

/s/

Thomas O. Rice
THOMAS O. RICE
Chief United States District Judge

App. 25
THE SUPREME COURT OF WASHINGTON
JAMES COURTNEY, et al.,
Petitioners,
v.
WASHINGTON UTILITIES
AND TRANSPORTATION
COMMISSION, et al.,
Respondents.

)
No. 95796-7
)
ORDER
)
) Court of Appeals
No. 35095-9-III
)
) (Filed Aug. 8, 2018)
)
)
)
)
)

A Special Department of the Court, composed of
Chief Justice Fairhurst and Justices Owens, Stephens,
Gonzàlez, and Yu, considered at its August 7, 2018, Motion Calendar, whether review should be granted pursuant to RAP 13. 4(b), and unanimously agreed that
the following order be entered.
IT IS ORDERED:
That the petition for review is denied.
DATED at Olympia, Washington, this 8th day of
August, 2018.
For the Court
/s/ Fairhurst, CJ.
CHIEF JUSTICE

App. 26
IN THE COURT OF APPEALS
OF THE STATE OF WASHINGTON
DIVISION THREE
JAMES COURTNEY and
CLIFFORD COURTNEY,

)
No. 35095-9-III
)
)
Appellants,
)
v.
)
)
WASHINGTON UTILITIES
)
AND TRANSPORTATION
COMMISSION; DAVID DAN- )
PUBLISHED
NER, chairman and commis- )
OPINION
)
sioner, ANN RENDAHL,
) (Filed Apr. 3, 2018)
commissioner, and JAY
BALASBAS, commissioner, in )
)
their official capacities as
)
officers and members of the
)
Washington Utilities and
Transportation Commission; )
)
and STEVEN KING, in his
official capacity as executive )
)
director of the Washington
Utilities and Transportation )
)
Commission,
)
Respondents,
)
ARROW LAUNCH SERVICE, )
)
INC.,
)
Intervenor.
LAWRENCE-BERREY, C.J.—RCW 81.84.010(1) prohibits operating a commercial ferry for the public use
over a regular route unless the Washington Utilities

App. 27
and Transportation Commission (WUTC) issues a certificate declaring that public convenience and necessity (PCN) requires such operation. James Courtney
and Clifford Courtney sought a declaratory order from
the WUTC to determine whether any of their five proposed commercial ferry services on Lake Chelan would
require a PCN certificate. They contended that none of
their proposed services were “for the public use,” as
contemplated by RCW 81.84.010(1). The WUTC disagreed and concluded that all five of the Courtneys’ proposed ferry services were for the public use and would
require a PCN certificate.
On appeal, the Courtneys contend that the WUTC
erred in too broadly construing “for the public use.”
They also contend that the WUTC acted arbitrarily or
capriciously because it treats surface transportation
carriers differently from commercial ferries and because the WUTC refused to apply the charter service
exemption for commercial ferries to one of its proposed
ferry services.
We review the legislative intent behind RCW
81.84.010(1), conclude that the phrase “for the public
use” should be construed broadly to protect regulated
commercial ferries, and affirm the WUTC.
FACTS
Lake Chelan Boat Company has operated a yearround commercial ferry service on Lake Chelan since
1918. The WUTC’s predecessor issued a PCN certificate to Lake Chelan Boat Company in 1929 and, since

App. 28
that time, Lake Chelan Boat Company has successfully protected its exclusivity.
The Courtneys are residents of Stehekin, Washington, a small, unincorporated town at the northwest
end of Lake Chelan. The Courtneys and their families
own several businesses in Stehekin, Washington, including two floating plane companies, Stehekin Valley
Ranch, Stehekin Outfitters, Stehekin Log Cabins, and
Stehekin Pastry Company. They have attempted to operate their own commercial ferry on Lake Chelan for
the past two decades. Stehekin, a popular tourist destination, is accessible only by boat, plane, or foot.
In 2009, Cliff Courtney sent a letter to his state
legislators and the governor urging them to eliminate
or relax the commercial ferry PCN requirement. The
legislature passed, and the governor signed, a bill directing the WUTC to study and report on the appropriateness of the regulations governing ferry service on
Lake Chelan.
The WUTC published its report in early 2010. The
report reviewed the history of ferry service regulation
on Lake Chelan from 1911 to 2009 and the legal framework for regulation and its rationale. The report discussed the then-current ferry service on Lake Chelan
and the views of stakeholders as to whether existing
laws should be relaxed to allow unregulated commercial ferries to compete with regulated commercial ferries. The report concludes with a discussion and
recommendation to the legislature:

App. 29
[T]he ferry services provided by the Lake Chelan Boat Company provide a lifeline to the
communities of Stehekin and Holden Village.
Faced with the question posed in 1921—
would these communities be adequately
served by unregulated passenger ferry operators?—the present Commission could not say
with confidence that they would.
In the short term, it is conceivable, and perhaps likely, that during the busy summer
months customer would enjoy the benefits of
competition among boat operators, who would
lower fares and improve service to make their
offerings more attractive to potential customers. During these periods, tourism may even
increase as prices fall.
But we agree with our predecessors that . . .
ferry operators would cease all unprofitable
activities. With no legal obligation to serve,
they would reduce or eliminate services during the winter months, or during times when
fuel prices are high, or during times when
more attractive business opportunities arise
for the use of their boats or docking facilities.
Even if revenues during the summer months
would allow the operators revenue to serve
year-round, they would not be expected to so
if such activities were unprofitable and they
were under no obligation to provide them. In
any event, it is not clear that summer operations would subsidize winter service if the operators were to lose market share during
those months to seasonal competitors.

App. 30
Moreover, the issue of safety must be considered. Because the purchase, maintenance and
operation of ferry service is a costly venture
. . . we doubt that the opportunity to provide
ferry service on Lake Chelan will attract more
than a few operators that the Commission
would deem “fit, willing and able” to provide
service under current standards. . . .
For these reasons, the Commission does not
recommend at this time any changes to the
state laws dealing with commercial ferry regulation as it pertains to Lake Chelan. . . .
Clerk’s Papers (CP) at 287.
In 2011, the Courtneys commenced a federal constitutional challenge to the PCN requirement. The federal district court dismissed the Courtneys’ claims, but
the Ninth Circuit reversed in part. On remand, the federal district court issued an order “retain[ing] jurisdiction over [the Courtneys’] second constitutional claim
pending an authoritative construction of the phrase
‘for the public use for hire’ by the WUTC or the Washington state courts.” CP at 252.
In furtherance of that order, the Courtneys filed a
petition with the WUTC for it to determine the meaning of “for the public use for hire.”1 The WUTC declined
to enter an order on the basis that the petition lacked
1

The WUTC has defined “for hire” as “transportation offered
to the general public for compensation.” WAC 480-51-020(7). The
Courtneys do not challenge the WUTC’s definition of this part of
the statutory language. For this reason, we truncate the phrase
from here forth.

App. 31
sufficient information and operational details. The
Courtneys then filed a second petition setting forth five
proposed ferry services so that the WUTC could make
its determination as to each proposed service.
The services share several features in common.
The proposed vessel is a 50- to 64-foot climatecontrolled boat, and would operate between Memorial
Day and early October of each year. Each service would
charge a flat rate of $37 per adult passenger for a oneway ticket, or $74 for a round trip.
Each service would be a scheduled run between
Stehekin and the federally-owned dock in either Fields
Point Landing or Manson Bay Marina. The boat would
leave Stehekin at 10:00 a.m., arrive at either destination at noon, depart at 12:30 p.m., and arrive back at
Stehekin at 2:30 p.m. The primary difference among
the proposed services are the scope of passengers the
boat would carry:
Proposal 1 (Lodging Customers of Stehekin
Valley Ranch)—Passengers would be limited
to persons with confirmed reservations to stay
overnight at Stehekin Valley Ranch, owned by
Clifford Courtney and his wife. The boat
transportation service would be owned by
Clifford Courtney, and make no intermediate
stops.
Proposal 2 (Lodging Customers and Customers of Other Activities Offered at Stehekin
Valley Ranch)—In addition to persons with
reservations to stay at the ranch, passengers
would include anyone with reservations to

App. 32
participate in any of the activities the ranch
offers, including activities provided by Stehekin Outfitters, run in part by Clifford Courtney’s son. Again, the boat transportation
service would be owned by Clifford Courtney
and would make no intermediate stops.
Proposal 3 (Customers of Courtney Familyowned Businesses)—Passengers would be
limited to anyone with reservations at any
business owned by Clifford or James Courtney or their extended family, including but not
limited to the Stehekin Valley Ranch. The
boat would make intermediate stops at, or
stand-alone trips to, other points on Lake
Chelan as necessary to access the businesses.
The boat transportation service would be
owned by James and Clifford Courtney.
Proposal 4 (Customers of Stehekin-Based
Businesses)—Passengers could be anyone
with reservations at any Stehekin-based businesses that want to use the service, including
but not limited to Courtney family-owned
businesses. The boat would make intermediate stops at, or stand-alone trips to, other
points on Lake Chelan as necessary to access
the businesses. The boat transportation service would be owned by James and Clifford
Courtney.
Proposal 5 (Charter by Stehekin-based Travel
Company)—Passengers would be restricted to
persons who have purchased a travel package
from a Stehekin-based travel agency that is
not affiliated with the Courtneys but would

App. 33
charter the boat from the Courtneys. The boat
would make intermediate stops at, or standalone trips to, other points on Lake Chelan as
necessary to access the travel locations. The
boat transportation service would be owned
by James and Clifford Courtney.
CP at 429-30. In all of the proposed services, the commercial ferry service would be owned independently
from the other businesses.
The WUTC issued notice for all interested persons
or entities to submit comments. Lake Chelan Boat
Company expressed its opposition to another ferry service on Lake Chelan, claiming its financial viability
and ability to operate year-round services for the public would be under threat. Arrow Launch Service,
Inc.—a PCN ferry operator not servicing Lake Chelan—also expressed its opinion that the Courtneys’
proposed services would create a template for setting
up ferries that are public in all but name, which would
threaten the viability of all true regulated public ferries in Washington.
The WUTC heard oral argument and issued its declaratory order a few weeks later. The WUTC noted
that the only legal issue was whether the proposed services would operate “for the public use” within the
meaning of RCW 81.84.010(1). The order noted that
the legislature did not define the phrase and that neither the WUTC nor any Washington court had interpreted the phrase.

App. 34
The WUTC then looked to the plain language of
the statute to derive the legislature’s intent. Relying
on a dictionary definition, the WUTC construed “for
the public use” as meaning “ ‘accessible to or shared by
all members of the community.’ ” CP at 432-33. Relying
on a dictionary definition once again, the WUTC construed “community” as meaning “ ‘a body of individuals
organized into a unit’ ” or “ ‘linked by common interests.’ ” CP at 433. Combining the dictionary definitions
for both terms, the WUTC concluded that a commercial
ferry operator must obtain a PCN certificate when the
ferry “is accessible to all persons that are part of a
group with common interests.” CP at 433.
The Courtneys argued to the WUTC that their
proposed services were not for the public use because
ferry services would be limited to customers of one or
more particular Stehekin businesses. The WUTC
noted that the United States Supreme Court had rejected a similar argument in Terminal Taxicab Co. v.
Kutz, 241 U.S. 252, 36 S. Ct. 583, 60 L. Ed. 984 (1916).
The WUTC, in rejecting this argument, concluded that
limiting services to persons who are demonstrated customers of specific businesses would not remove the services’ essential public character.
The Courtneys also argued that exemptions applicable to commercial ferries should be as broad as
exemptions applicable to surface transportation companies. The WUTC, noting that there are important
differences between the commercial ferry statutes and
surface transportation statutes, rejected that argument.

App. 35
The Courtneys further argued that Proposal 5 was
exempt under the ferry charter service exemption. The
WUTC disagreed and explained that Proposal 5 was
not a true charter service because it would not
transport cohesive groups for a single agreed-upon
purpose; rather, it would simply be customers of Stehekin businesses aggregated through a third-party booking agency, thus maintaining the public character of
the previous proposals.
The WUTC issued a declaratory order that stated
the Courtneys must first obtain a PCN certificate before operating any of their five proposed ferry services.
The Courtneys sought judicial review of the declaratory order in Chelan County Superior Court. That
court affirmed the agency’s decision.
The Courtneys appealed to this court.
ANALYSIS
A. REVIEW

OF AN AGENCY ORDER IN GENERAL

Our limited review of an agency order is governed
by the Administrative Procedure Act (APA), chapter
34.05 RCW. Campbell v. Emp’t Sec. Dep’t, 180 Wn.2d
566, 571, 326 P.3d 713 (2014). We sit in the same position as the superior court and apply the APA standards
directly to the administrative record. Id. Thus, the decision we review is that of the agency, not of the superior court. Id.
RCW 34.05.570(3) sets forth nine bases by which
a court may grant relief from an agency order in an

App. 36
adjudicative proceeding. The Courtneys seek review on
two bases. The Courtneys claim that the WUTC’s order
(1) erroneously interpreted or applied the law2 and (2)
is arbitrary or capricious. See RCW 34.05.570(3)(d), (i).
For both claims, the Courtneys have the burden of
proof. RCW 34.05.570(1)(a).
B.

THE WUTC DID NOT ERR IN DEFINING “FOR THE
PUBLIC USE”
1.

“For the public use” is ambiguous; it can
mean the general public or a subset of
the public

RCW 81.84.010(1) provides in relevant part:
A commercial ferry may not operate any vessel or ferry for the public use for hire between
fixed termini or over a regular route upon the
waters within this state . . . without first applying for and obtaining from the commission
a certificate declaring that public convenience
and necessity require such operation.
(Emphasis added.)
The WUTC interpreted “for the public use” as
meaning “accessible to all persons that are part of a
2

The Courtneys requested relief under a narrower basis,
RCW 34.05.570(4)(c)(ii), i.e., agency action outside its statutory
authority. The commission obviously had authority to enter its
declaratory order. See RCW 34.05.240. The Courtneys’ actual argument is broader: the Courtneys challenge the WUTC’s interpretation of “for the public use.” The WUTC acknowledges this in
its brief. WUTC Br. at 12 n.4. We therefore review the Courtneys’
broader argument.

App. 37
group with common interests.” CP at 433 (emphasis
added). This interpretation allows “for the public use”
to apply to a subset of the public. For example, it would
apply to a subset of the public who wish to patronize
one business in Stehekin or a group of businesses in
Stehekin.
The Courtneys argue that the WUTC’s construction is too broad and should not include subsets of the
public. They argue that their proposed ferry services
are not “for the public use” because their ferry services
would not be accessible to the general public but instead would be limited to those who wish to patronize
one Stehekin business or a group of Stehekin businesses.
We must determine whether the legislature intended “for the public use” to apply to a subset of the
public.
To begin our analysis, we first recite general rules
of statutory interpretation:
When interpreting a statute, the court’s
fundamental objective is to ascertain and give
effect to the legislature’s intent. We begin with
the plain meaning of the statute. In doing so,
we consider the text of the provision in question, the context of the statute in which the
provision is found, related provisions, amendments to the provision, and the statutory
scheme as a whole. If the meaning of the statute is plain on its face, then we must give effect to that meaning as an expression of
legislative intent. If, after this inquiry, the

App. 38
statute remains ambiguous or unclear, it is
appropriate to resort to aids of construction
and legislative history.
Lenander v. Dep’t of Ret. Sys., 186 Wn.2d 393, 405, 377
P.3d 199 (2016) (citations omitted).
We note that the phrase, “for the public use,” is not
defined. So, we review the statutory scheme to discern
legislative intent. Our review is assisted by the
WUTC’s 2010 report to the legislature that accurately
summarizes the scheme:
Rate and service regulations—Once granted a
certificate for the provision of commercial
ferry service, the operator’s rates and services
are subject to regulation by the Commission.
[Chapter 81.28 RCW; chapter 81.04 RCW]
This means that the operator must file with
the Commission a tariff reflecting its fares
and terms of service and must charge only
in accordance with that tariff. [RCW
81.28.040, .080] If the operator wishes to
change its rates or terms, it must file an
amendment to its tariff on 30 days notice to
the Commission and the public. [RCW
81.28.050] The Commission may audit the
company’s books and records and if the Commission is not satisfied that the rates reflected
in the tariff are fair, just, reasonable and sufficient, the Commission may suspend the operation of the tariff amendments and initiate
an adjudication to determine the rates and
terms of service. [RCW 81.04.130]

App. 39
The Commission may revoke an operator’s
certificate if the operator fails to provide the
service described in its tariff or if it fails to
comply with the statutes and rules governing
commercial ferry service. [RCW 81.84.060]
Protection against competition—Certificated
commercial ferries enjoy considerable protection from competition as long as they continue
to provide satisfactory service and comply
with regulations. If a person applies for a certificate to initiate a new ferry service on a
route or in an area already served by an incumbent certificate holder, the incumbent
must be afforded notice and an opportunity to
be heard. [RCW 81.84.020] More importantly,
the Commission may not grant a certificate to
operate in an area already served by an existing certificate holder, unless the existing certificate holder has failed or refused to furnish
reasonable and adequate service, or the existing certificate holder does not object. [RCW
81.84.020]
CP at 266-67 (footnotes omitted).
The statutory scheme does not answer whether
the legislature intended “for the public use” to apply to
a subset of the public. We next look to the historical
construction of the statutory scheme.

App. 40
2.

A significant case interpreting the
rights of PCN ferry operators reinforces
the WUTC’s determination that “for the
public use” extends to a subset of the
public

In Kitsap County Transportation Co. v. Manitou
Beach-Agate Pass Ferry Ass’n, 176 Wash. 486, 494-96,
30 P.2d 233 (1934), the Supreme Court described the
strong public policy that supports protecting a regulated ferry from unregulated competition. There,
Kitsap County Transportation Company (KCTC) held
a certificate to provide year-around ferry service from
Seattle to a point on Bainbridge Island. Id. at 487. A
group of Bainbridge residents, dissatisfied with the
service, formed an association for the purpose of having alternate ferry service. Id. at 488. The association
entered into a charter agreement with Puget Sound
Navigation Company to use one of its ferries for $7,500
per month. Id. at 494. The chartered ferry was available only to a subset of the public—club members, their
families, their servants, or their guests. Id. at 492. To
be a club member, a person was required to pay $1 per
year. Id. at 494.
KCTC obtained an injunction and stopped the
competing ferry service. Id. at 488-89. After a trial, the
lower court entered a permanent injunction. Id. at 489.
The Supreme Court affirmed. Id. at 496. In affirming,
the court explained the public policy that supported issuance of a PCN certificate to one operator and the
threat to public welfare by permitting unregulated
competition. Id. at 489-96. The court concluded: “To

App. 41
allow a competitor to enter the field would be to encourage ruinous competition which would be not only
destructive of [KCTC]’s rights under its certificate of
convenience and necessity, but inimical to the best interests of the traveling public at large.” Id. at 496.
3.

RCW 81.84.020(1) confers on the WUTC
the power to grant exclusive rights to an
operator in compliance with its public
obligations

The Courtneys nevertheless assert that some unregulated competition must be permitted. Citing In re
Electric Lightwave, Inc., 123 Wn.2d 530, 869 P.2d 1045
(1994), they argue that Washington Constitution article XII, section 22 manifests the state’s abhorrence of
monopolies and, where a statute is ambiguous, our
state constitution makes it inappropriate to impute a
conferral of authority on the WUTC to grant monopolies.
Electric Lightwave is distinguishable on the basis
that the legislature granted the WUTC different
authority to regulate competition between the two
statutory schemes. In Electric Lightwave, the court reviewed the legislature’s grant of authority to the
WUTC to regulate telecommunications companies.
RCW 80.36.230 provides, “The commission is hereby
granted the power to prescribe exchange area boundaries and/or territorial boundaries for telecommunications companies.” The court held:

App. 42
This language does not confer on the [WUTC]
the power to grant monopolies or exclusive
rights. Since the [WUTC] is fully capable of
exercising its authority under RCW 80.36.230
without the power to grant monopolies or
other exclusive rights, the text does not necessarily or impliedly grant such power.
Electric Lightwave, 123 Wn.2d at 537, 869 P.2d 1045.
We contrast the WUTC’s authority to protect a singular telecommunications company with its authority
to protect a singular commercial ferry operator. With
the former, the legislature did not explicitly or implicitly grant the WUTC authority to protect one telecommunications company over another. With the latter, the
legislature explicitly directs the WUTC to protect a
PCN ferry operator from an applicant seeking to provide competing services for the public use. RCW
81.84.020(1) provides, in relevant part:
[T]he commission may not grant a [PCN] certificate to operate between districts or into
any territory . . . already served by an existing
certificate holder, unless the existing certificate holder has failed or refused to furnish
reasonable and adequate service, has failed to
provide the service described in its certificate
or tariffs . . . or has not objected to the issuance of the certificate as prayed for.
As noted in our discussion of Kitsap County Transportation Co., this authority extends to protecting a
PCN ferry operator from an unregulated commercial

App. 43
ferry seeking to provide competing services for the
public use.3
4.

Old decisions from states outside Washington do not persuasively establish legislative intent

The Courtneys also assert that various decisions,
mostly over 100 years old and from other jurisdictions,
warrant a narrower construction of “for the public use.”
The WUTC asserts that most of the decisions are distinguishable on one or more bases. We need not analyze these other decisions given our view that Kitsap
County Transportation Co. justifies a broad construction of “for the public use” to protect a PCN ferry operator from unregulated competition.
5.

The WUTC’s definition is appropriate

We next determine whether we should adopt the
WUTC’s definition. While the courts retain ultimate
authority to interpret a statute, we afford great weight
to an administering agency’s interpretation of a statute’s legislative intent. Waste Mgmt. of Seattle, Inc. v.
Utils. & Transp. Comm’n, 123 Wn.2d 621, 628, 869 P.2d
1034 (1994).
3

Further, the protections afforded by RCW 81.84.020(1) do
not run afoul of Washington Constitution article XII, section 22’s
prohibitions on monopolies. This is because the grant of a right to
operate ferries across navigable waters is not the grant of a private or common right. Kitsap County Transp. Co., 176 Wash. at
489-91.

App. 44
As mentioned previously, the WUTC utilized dictionary definitions to interpret “for the public use” in a
manner that extends the phrase to subsets of the public. This extension is consistent with Terminal Taxicab
Co. v. Kutz, 241 U.S. 252. Terminal Taxicab was the
leading case discussing the phrase “public use” when
our legislature, in 1927, enacted what now is RCW
81.84.010.
In Terminal Taxicab, a taxi company with exclusive rights to serve certain District of Columbia hotels
unsuccessfully argued that its operations fell outside
the District’s authority to regulate. Id. at 257. The District’s authority extended to “ ‘controlling or managing
any agency or agencies for public use for the conveyance of persons or property within the District of Columbia for hire.’ ” Id. at 253 (quoting Public Utilities
Commission Appropriation Act of Mar. 4, 1913, ch. 150,
§ 8, ¶ 1). Similar to the limitations in the Courtneys’
five proposals, the taxi company limited its services to
a subset of the public, i.e., only persons who were
guests of hotels with whom it had a contract. Id. at 25455. The United States Supreme Court held that such a
limitation did not strip the taxi company of its public
character:
No carrier serves all the public. His customers
are limited by place, requirements, ability to
pay, and other facts. But the public generally
is free to go to hotels if it can afford to, as it is
free to travel by rail, and through the hotel
door to call on the plaintiff for a taxicab. . . .
The service affects so considerable a fraction

App. 45
of the public that it is public in the same sense
in which any other may be called so. The public does not mean everybody all the time.
Id. at 255 (citations omitted) (emphasis added).
Similarly here, the public is free to visit Stehekin.
Limiting service to guests of one or more Stehekin
businesses does not strip the proposed ferry service of
its public character. Subject to consideration of the
Courtneys’ next argument, we believe that the
WUTC’s rule is correct and consistent with the legislative intent of RCW 81.84.010(1).
The Courtneys argue that Terminal Taxicab is distinguishable because their proposed services would not
affect a considerable portion of the public. At first
blush, their argument is persuasive. How could Proposal 1 or Proposal 2 impact the viability of the current
PCN certificate holder and thus the public?
In the context of commercial ferries, an operator
must make a sizeable capital investment to purchase
a ferry. Also, the daily variable costs of ferry service requires a large stream of revenue sufficient to cover
both daily expenses and to provide a reasonable rate of
return on the initial capital investment.
The Courtneys’ proposed vessel is a 50- to 64-foot,
climate-controlled boat that would provide service between Memorial Day and early October of each year.
At $37 per adult ticket, the service would be viable only
if the four-month demand is substantial. We therefore
conclude that any viable proposal would sufficiently

App. 46
impact the current PCN certificate holder and thus the
public.
C.

THE WUTC’S

ORDER IS NOT ARBITRARY OR4 CA-

PRICIOUS

The Courtneys make two arguments to support
their contention that the WUTC’s order is arbitrary or
capricious. We will discuss each argument in turn.
The scope of review under an arbitrary or capricious standard is very narrow, and the party asserting
it carries a heavy burden. Ass’n of Wash. Spirits & Wine
Distribs. v. Wash. State Liquor Control Bd., 182 Wn.2d
342, 359, 340 P.3d 849 (2015). An agency’s decision is
arbitrary or capricious if the decision is the result of
willful and unreasoning disregard of the facts and circumstances. Overlake Hosp. Ass’n v. Dep’t of Health,
170 Wn.2d 43, 50, 239 P.3d 1095 (2010). “ ‘[W]here
there is room for two opinions, an action taken after
due consideration is not arbitrary [or] capricious even
though a reviewing court may believe it to be erroneous.’ ” Wash. Indep. Tel. Ass’n v. Wash. Utils. & Transp.
Comm’n, 148 Wn.2d 887, 904, 64 P.3d 606 (2003) (first
alteration in original) (quoting Rios v. Dep’t of Labor &
Indus., 145 Wn.2d 483, 501, 39 P.3d 961 (2002)).

4

RCW 34.05.570(3)(i) permits a court to grant relief if the
agency decision is “arbitrary or capricious.” Appellate decisions,
perhaps using a prior standard, often speak of “arbitrary and capricious.” We will use the statutory standard in our analysis. We
do not believe the different standards result in a different analysis or result.

App. 47
1.

Surface transportation is not similar to
commercial ferries

The Courtneys argue that the WUTC’s order is arbitrary or capricious because the WUTC exempts certain surface transportation activities but does not
exempt comparable commercial ferry activities. “Agencies should strive not to treat similar situations differently and should strive for equal treatment.” Stericycle
of Wash., Inc. v. Wash. Utils. & Transp. Comm’n, 190
Wn. App. 74, 93, 359 P.3d 894 (2015).
The Courtneys note that surface (or passenger)
transportation companies, similar to commercial ferry
operators, must obtain a PCN certificate. WAC 480-30086(1). The Courtneys contend that WAC 480-30011(6),5 (8),6 and (9)7 provide exemptions from the PCN
certificate requirement to surface transportation companies that are analogous to one or more of their five
proposed ferry services.

5

“Person owning, operating, controlling, or managing . . . hotel buses. . . .”
6
“Private carriers who, in their own vehicles, transport passengers as an incidental adjunct to some other established private
business owned or operated by them in good faith.”
7
“Transporting transient air flight crew or in-transit airline
passengers between an airport and temporary hotel accommodations under an arrangement between the airline carrier and the
passenger transportation company.”

App. 48
First, we fail to see the similarity between the
noted surface transportation exemptions and any of
the Courtneys’ proposed commercial ferry services.
Second, the statutory treatment of surface transportation companies is different from the statutory
treatment of commercial ferries. The different treatment no doubt is due to the differences between the
two types of commercial carriers. For instance, taxis
and buses are ubiquitous, and ferries are not. If a taxi
service in a city suddenly ceases operation, residents
will have numerous alternatives to travel. But if the
Lake Chelan Boat Company suddenly ceases operation, Stehekin residents would be hard-pressed to
leave and return to Stehekin. This leads to the conclusion that surface transportation companies and commercial ferry operators are sufficiently different that
the WUTC is not treating similar commercial carriers
differently.
Third, the WUTC did consider the facts and circumstances when declining to apply the surface transportation exemptions to commercial ferry operators.
The WUTC noted that hotel buses are expressly exempt by statute, that airline crew transportation between airports and hotels is simply a variation of hotel
buses, and that private carriers that transport people
incidental to an established business do not fit within
the definition of an “auto transportation company.”
This is because under RCW 81.68.010(3), transporting
passengers incidental to an established business is not
a transport business.

App. 49
The Courtneys argue that the WUTC “could have”
exempted their proposed services. However, in making
this argument, they ignore the highly deferential
standard of our review. In summary, we conclude that
the WUTC did not act arbitrarily or capriciously by refusing to apply surface transportation exemptions to
commercial ferry operators.
2.

The WUTC did not err by refusing to
treat Proposal 5 as a private charter service

The Courtneys next argue that the WUTC arbitrarily or capriciously ignored its own regulation and
did not treat Proposal 5 as an exempt charter service.
WAC 480-51-020(14) exempts “charter service”
from the PCN certificate requirements of RCW
81.84.010(1). The WUTC adopted this exemption pursuant to a 1995 legislative act—Laws of 1995, chapter
361, section 3, which authorized the exemption. The
authorization expired in 2001. LAWS OF 1995, ch. 361,
§ 4. The WUTC neglected to remove the expired exemption from its rules.
The WUTC, recognizing the lack of a statutory basis for the exemption, nevertheless analyzed whether
Proposal 5 would be a private charter service. The
WUTC concluded that it would not. We agree.
A true charter does not operate within the meaning of RCW 81.84.010(1) because it represents a onetime private use between a chartering party and an

App. 50
operator. See Cushing v. White, 101 Wash. 172, 181-82,
172 P. 229 (1918). This arrangement can be contrasted
with the arrangement previously discussed in Kitsap
County Transportation Co. There, several Bainbridge
Island residents formed an association to “charter” a
competing ferry between Seattle and Bainbridge Island. Kitsap County Transp. Co., 176 Wash. at 488. The
association claimed that the competing ferry was
merely a “club boat” operated for the convenience of
“club members.” Id. at 492. The court saw through the
association’s subterfuge and concluded that the association’s real purpose “was to establish and maintain a
vehicular ferry service between Seattle and [Bainbridge Island].” Id. at 488. The court concluded that the
ferry service was a public use and affirmed the trial
court’s injunction. Id. at 496.
Similarly, Proposal 5 seeks to use a chartering arrangement to establish and maintain a ferry service
between Stehekin and various other points on Lake
Chelan. Proposal 5 is not a true charter because it does
not involve a one-time private use between a chartering party and an operator. We conclude that Proposal
5 is a public use within the meaning of RCW
81.84.010(1).
Affirmed.
/s/ Lawrence-Berry, C.J.
Lawrence-Berry, C.J.

App. 51
WE CONCUR:
/s/ Korsmo, J.
Korsmo, J.

/s/ Siddoway, J.
Siddoway, J.

App. 52
STATE OF WASHINGTON
CHELAN COUNTY SUPERIOR COURT
JAMES COURTNEY and
CLIFFORD COURTNEY,
Petitioners,
v.

NO. 15-2-01015-2
FINAL ORDER
AND JUDGMENT
AFFIRMING
AGENCY
DECLARATORY
ORDER

WASHINGTON UTILITIES
AND TRANSPORTATION
COMMISSION; DAVID
DANNER, chairman and com(Filed Feb. 6, 2017)
missioner, ANN RENDAHL,
commissioner, and PHILIP
JONES, commissioner, in their
official capacities as officers
and members of the Washington
Utilities and Transportation
Commission; and STEVEN
KING, in his official capacity as
executive director of the Washington Utilities and Transportation Commission,
Respondents,
ARROW LAUNCH SERVICE,
INC.,
IntervenorRespondent.

This matter having come before the Court on
James and Clifford Courtney’s Petition for Judicial

App. 53
Review of the declaratory order entered by the Washington Utilities and
Transportation Commission on November 16,
2015, in Docket No. TS-151359; the Court having considered the following materials:
1.

Petition for Judicial Review, from Petitioners
James Courtney and Clifford Courtney.

2.

Opening Brief of Petitioners James Courtney
and Clifford Courtney

3.

Response Brief of Respondent Washington
Utilities and Transportation Commission

4.

Response Brief of Intervenor-Respondent Arrow Launch Service, Inc.

5.

Reply Brief of Petitioners James Courtney
and Clifford Courtney

6.

Certified administrative record (AR) for
Washington Utilities and Transportation
Commission Docket No. TS-151359

and the Court having heard oral argument on October
31, 2016, the Court enters its findings of fact, conclusions of law, judgment, and order, as follows:
MEMORANDUM DECISION
As a supplement to the findings of fact and conclusions of law set forth below, the Court incorporates its
memorandum decision, dated January 25, 2017, and
attached hereto as Exhibit A.

App. 54
FINDINGS OF FACT
1.

On July 1, 2015, James Courtney and Clifford
Courtney filed with the Washington Utilities
and Transportation Commission a petition
pursuant to RCW 34.05.240 seeking an order
declaring the applicability of the certificate
requirement in RCW 81.84.010(1) to five hypothetical boat transportation services detailed at pages 16-26 of the petition (AR 1828). AR 3-347.

2.

The Commission entered a declaratory order
in Docket No. TS-151359, November 16, 2015,
pursuant to RCW 34.05.240. AR 384-94.

3.

The Courtneys timely petitioned for judicial
review of the Commission’s declaratory order,
pursuant to RCW 34.05.570.

4.

The Courtneys’ petition for judicial review
made the following allegations: (1) the Commission’s declaratory order is “outside the
statutory authority or jurisdiction of the
agency conferred by any provision of law”
within the meaning of RCW 34.05.570(3)(b);
and (2) the Commission’s declaratory order is
“arbitrary or capricious” within the meaning
of RCW 34.05.570(3)(i).

5.

This Court reviewed the applicability of RCW
81.84.010(1)’s certificate requirement to the
five proposed boat transportation services detailed at pages 16-26 of the Courtneys’ petition for declaratory order (AR 18-28).

6.

The Court finds that in each proposal, the
Courtneys will serve the same members of the

App. 55
public currently served by the incumbent certificate holder, Lake Chelan Boat Company.
The public will merely be moving to another
boat for travel. Additionally, the Courtneys
will serve the public indifferently. Customers
will be able to make a reservation regardless
of their identity.
7.

Proposed services 1-4 will not operate as mere
incidental adjuncts to existing Stehekin,
Wash., businesses operated by the Courtneys
or by their family members. Proposed services
1-4 involve customers separately paying for
the voyage at a rate that presumably provides
for the payment of debt, operation, upkeep,
and maintenance of the vessel. At $37.00 oneway, or $74.00 round-trip, proposed services 14 are not incidental to Stehekin businesses
but, rather, stand alone.

8.

A boat transportation service that operates
between fixed termini or upon a regular
schedule is not a “charter service.” Proposed
service 5 is not a “charter service” because it
would involve a vessel running regular routes
between federally-owned docks at Stehekin
and either the federally-owned dock at Fields
Point Landing or the Manson Bay Marina.
The exemption of “charter services” in WAC
480-51-022(1) is redundant considering the
“fixed termini” and “regular route” language
in RCW 81.84.010(1).

9.

The Commission has not authorized exemptions to RCW 81.84.010(1)’s certificate requirement that are similar to the exemptions

App. 56
to RCW 81.68.040 (certificate requirement for
auto transportation companies) set forth in
WAC 480-30-011.
10. All five proposed services will operate “for the
public use” within the meaning of RCW
81.84.010(1).
11. All five proposed services will require a “certificate declaring that public convenience and
necessity require such operation.” RCW
81.84.010(1).
CONCLUSIONS OF LAW
1.

This Court has jurisdiction over this matter
pursuant to chapter 34.05 RCW, Part V. Venue
is proper in this Court pursuant to RCW
34.05.514(1).

2.

Petitioners have standing to obtain judicial
review of the Commission’s declaratory order.
RCW 34.05.530.

3.

Petitioners have the burden to demonstrate
the invalidity of the Commission’s declaratory
order. RCW 34.05.570(1)(a).

4.

In a review under RCW 34.05.570, the court
may (a) affirm the agency action or (b) order
an agency to take action required by law, order an agency to exercise discretion required
by law, set aside agency action, enjoin or stay
the agency action, remand the matter for further proceedings, or enter a declaratory judgment order. RCW 34.05.574(1).

App. 57
5.

Chapter 81.84 RCW, including RCW
81.84.010(1)’s certificate requirement, does
not violate Article XII § 22 of the Washington
Constitution. Kitsap Cy. Transp. Co. v. Manitou Beach-Agate Pass Ferry Ass ‘n, 176 Wash.
486, 30 P.2d 233 (1934); Dep’t of Public Works
v. Inland Forwarding Corp., 164 Wash. 412, 2
P.2d 888 (1931).

6.

All five proposed services will operate “for the
public use” within the meaning of RCW
81.84.010(1).

7.

All five proposed services will require a “certificate declaring that public convenience and
necessity require such operation.” RCW
81.84.010(1).

8.

Petitioners failed to demonstrate that the
Commission’s declaratory order is “outside
the statutory authority or jurisdiction of the
agency conferred by any provision of law,” as
required for judicial relief under RCW
34.05.570(3)(b)

9.

Petitioners failed to demonstrate that the
Commission’s declaratory order is arbitrary
or capricious, as required for judicial relief under RCW 34.05.570(3)(i).
FINAL JUDGMENT AND ORDER

THEREFORE, IT IS ORDERED THAT the agency
declaratory order entered by the Washington Utilities
and Transportation Commission on November 16,
2015, in Docket TS-151359 is AFFIRMED.

App. 58
DATED this 6th day of February, 2017.
/s/ Alicia H. Nakata
HON. ALICIA H. NAKATA
Presented by:

Approved as to form:

ROBERT W. FERGUSON
Attorney General

Notice of presentation
waived:

/s/ Julian H. Beattie
Julian H. Beattie,
WSBA No. 45586
Assistant Attorney
General
Counsel for Respondents
WUTC, David Danner,
Ann Rendahl, Philip
Jones, and Steven King

/s/ Michael E. Bindas
Michael E. Bindas, WSBA
No. 31590
Institute for Justice
Washington Chapter
Attorney for Petitioners
James and Clifford
Courtney

Approved as to form
Notice of presentation waived:
/s/ David W. Wiley
David W. Wiley,
WSBA No. 8614
Williams Kastner &
Gibbs LLC
Attorney for IntervenorRespondent Arrow
Launch Service, Inc.
EXHIBIT A
Memorandum Decision in Chelan County Superior
Court Docket 15-2-01015-2

App. 59
SUPERIOR COURT OF THE
STATE OF WASHINGTON
FOR CHELAN COUNTY
Lesley A. Allan,
Judge
Department 1
T.W. Small, Judge
Department 2

Alicia H. Nakata,
Judge
[LOGO]
Department 3
Bart Vandegrift
Court Commissioner
401 Washington Street
P.O. Box 880
Wenatchee, Washington 98807-0880
Phone: (509) 667-6210 Fax (509) 667-6588

January 25, 2017
Mr. Michael Bindas
Institute for Justice
10500 NE 8th Street, Suite 1760
Bellevue, WA 98804
Mr. Julian Beattie
Assistant Attorney General
Utilities and Transportation Division
PO Box 40128
Olympia, WA 98504-0128
Mr. David Wiley
Mr. Blair Fassburg
Williams, Kastner & Biggs PLLC
601 Union Street, suite 4100
Seattle, WA 98101-2380
RE: Courtney v. WUTC, et al. – Chelan Co. Cause No.
15-2-01015-2

App. 60
Dear Counsel:
The following is the Court’s memorandum opinion:
BACK GROUND
The city of Chelan sits at the southeast end of Lake
Chelan. Approximately fifty-five (55) miles away at the
northwest end of Lake Chelan is Stehekin, which is accessible only by boat, float plane, or hiking in by foot.
Currently, most Stehekin tourism occurs during the
summer months with the vast majority of tourists
traveling on the ferry operated by the Lake Chelan
Boat Company (Boat Company) between Chelan and
Stehekin.
For over twenty years, the Petitioners James and
Clifford Courtney have attempted to commence boat
transportation services for the customers of their Stehekin-based tourism businesses. Their efforts to add
transportation services as part of their tourism businesses have been unsuccessful because of the requirement for a commercial ferry to obtain a “certificate of
public convenience and necessity” (CPCN) from the
Washington Utilities and Transportation Commission
(WUTC) before being allowed to operate boat transportation services for public use. They have chafed under
the burden of having to acquiesce to the loss of this potential business to the Boat Company.
In 1983, the WUTC transferred the existing CPCN for
providing ferry service to Stehekin from the previous
grantee to the current Boat Company. In 1997,

App. 61
Petitioner James Courtney applied for, but was denied
the issuance of a CPCN to operate an additional ferry
service to Stehekin. Subsequent letters to the director
of the WUTC in 2006 and 2008 by the Courtneys in
hopes of obtaining a favorable advisory opinion avoiding the necessity of a CPCN for a proposed “on-call boat
service” or a “boat service incidental to other services”
were also unsuccessful. In 20092010, Clifford Courtney
unsuccessfully sought state legislative change to relax
or to create an exemption from the requirement of obtaining a CPCN. See WUTC Report to the Legislature,
Pursuant to ESB 5894, January 14, 2010; AR 220. Most
recently the Courtneys have sought relief from the federal courts. Courtney v. Goltz, 736 F.3d 1152 (9th Cir.
2013) AR 183-207.
By setting the terms for the issuance of a CPCN, the
WUTC controls the fares charged and the required services provided by the Boat Company in order to ensure
not only service during the lucrative summer months,
but as well all-the-year-round service for the approximately seventy-five (75) year round residents of Stehekin. See WUTC Report to the Legislature, Pursuant to
ESB 5894, January 14, 2010; AR.215, 217.
Because there is no legal obligation for the state or local governments to provide ferry service, the state regulatory scheme provides considerable protection to the
private investor, who has incurred substantial risk and
capital cost to initiate ferry service by requiring a potential competitor offering services “for the public use
for hire between fixed termini or over a regular route”
to apply and secure a CPCN. RCW 81.84.010. The

App. 62
WUTC may not grant a CPCN over the objection of the
existing certificate holder already serving the area unless the existing certificate holder has failed or refused
to provide reasonable and adequate service. RCW
81.84.020.
Against this back drop, the Courtneys requested and
received a declaratory order from the WUTC regarding
whether their proposed options for boat service would
require a Certificate of Public Convenience and Necessity (CPCN). The five options are as follows:
Option No. 1: The passengers of the boat transportation service, would be lodging
customers of the Stehekin Valley
Ranch owned by Clifford Courtney
and his wife. The boat company
would be separately owned by Cliff
Courtney. The service would operate a 50-64 foot boat between Memorial Day and early October, and
run solely between Stehekin, and
Fields Point Landing (a distance of
approximately 34 miles) or between Stehekin and Manson Bay
Marina (a distance of 42 miles).
Fares would be approximately $37
one way or $74 round-trip and reservations for boat service would be
made at the time of booking lodging over the internet or by phone.

App. 63
Option No. 2: This boat transportation service
would provide not only service to
lodging customers of the Stehekin
Valley Ranch, but as well those
participating in one or more of the
activities offered at the Ranch,
such as horseback riding. The
other details are essentially the
same as Option No. 1.
Option No. 3: Under this option the boat would
be owned by Clifford and James
Courtney. The boat would service
customers of all lodging, recreational and food businesses owned
and operated by various Courtney
family members. The boat service
and reservations would be the
same as Option No. 1, but would
also make intermediate flag stops
or stand- alone trips if required by
the requested services by obtaining dock permits from the US Forest Service, National Park Service
and other agencies as required.
(The Court notes that flag stop service defined as an on-demand stop
for either pick up or drop off is also
offered by the Boat Company.
WUTC Report to the Legislature,
Pursuant to ESB 5894, January
14, 2010; AR 228).

App. 64
Option No. 4: Clifford and James Courtney
would own the boat. The boat service would serve various businesses operating at Stehekin,
including businesses not owned
and operated by the Courtney family members, and would make intermediate flag stops or standalone trips as described in Option
3. The other details are the same as
Option No.1.
Option No. 5: This option is described as a “charter service”. Clifford and James
Courtney would own the boat. Boat
service would be limited to customers who had purchased a travel
package of Stehekin lodging and
services through a Stehekin-based
travel company which was not
owned by any Courtney. The travel
company would consolidate the
various bookings and then hire the
Courtney boat service by a private
“charter” agreement. The boat service would include intermediate
flag stops or stand-alone trips as
described in Option No. 3.
In its declaratory order, the WUTC held that a CPCN
was required in each of the five options put forward by
the Courtneys.

App. 65
ANALYSIS
A. Standing
Pursuant to RCW 34.05.530, the Courtneys have
standing to obtain judicial review of the WUTC’s action. The WUTC declaratory order has aggrieved the
Courtneys by determining that they must obtain a certificate declaring that public convenience and necessity allow for the operation of additional boat services
to Stehekin. A judgment by this Court in their favor
would substantially eliminate or redress the prejudice
caused or likely to be caused by the WUTC’s declaration that a CPCN is required for all five options. See
RCW 34.05.530.
B. Standard of Review
The burden of demonstrating the invalidity of agency
action is on the party asserting invalidity. RCW
34.05.570(1)(a). The Courtneys seek review based upon
two criteria: (1) The order is outside the statutory authority or jurisdiction of the WUTC; and (2) the order
is arbitrary or capricious. See RCW 34.05.570(3)(b), (i).
This matter involves review of a declaratory order
based on a set of undisputed hypothetical facts. When
considering a matter wherein the facts are undisputed,
conclusions of law are reviewed de novo. Vance v. Dep’t
of Retirement Systems, 114 Wn. App. 572, 576, 59 P.3d
130 (2002), rev. denied, 149 Wn.2d 1028 (2003). The reviewing court accords substantial weight to legal interpretations of the agency when it is acting within its
realm of expertise. 114 Wn. App. at 576. An agency’s

App. 66
regulations “are entitled to considerable deference
since they are the construction of [statutes] by those
whose duty is to administer [their] terms.” Gross v. City
of Lynnwood, 90 Wn.2d 395, 399, 583 P.2d 1197 (1978)
(modified to reflect plural tense).
C. Chapter 81.84 does not violate Art. XII,
§ 22 of Wash. Const.
The Courtneys’ constitutional argument calls for the
examination of the regulation of commercial ferry services for the public welfare. The operation of a commercial ferry for the public use for hire between fixed
termini or over a regular route requires the commission to issue a certificate declaring that public convenience and necessity (CPCN) require such operation.
RCW 81.84.010.
The Washington Supreme Court recognized the need
for the state to control and regulate ferries traveling
over its navigable waters in Kitsap County Transp. Co.
v. Manitou Beach Agate Pass Ferry Ass’n, et al., 176
Wash. 486, 30 P.2d 233 (1934). In response to the Washington Supreme Court reversing an order issued by the
Department of Public Works1 granting a CPCN to a
company desiring to add a ferry to a route already serviced by another company; a Ferry Association, consisting of about twenty (20) residents of Bainbridge Island,
was formed “to create a social, benevolent and charitable organization,” in an attempt to avoid the necessity
1

The Washington Department of Public Works was a predecessor to the WUTC.

App. 67
of an issuance of a CPCN. 176 Wash. at 488. The residents each paid a $1.00 fee to join the Association
which in reality was formed to operate a ferry service
between Seattle and Bainbridge Island. 176 Wash. at
488. On the first day that the Association began to run
its scheduled trips, the company holding the certificate
filed an action to enjoin the Association. After issuing
a temporary restraining order stopping the service after 3 trips, the King County Superior Court entered a
decree permanently restraining the Association from
operating a ferry service over the route. 176 Wash. at
488-89.
The Association argued that Chapter 248, § 1, which
was eventually codified as RCW 81.84.020, violated
Art. XII, Sec. 22, of the Washington Constitution. The
Courtney’s advance the same argument in the matter
at bar claiming that the restriction of ferry service on
Lake Chelan is inconsistent with the “abhorrence of
monopolies” contained in the Washington Constitution.
The Washington Supreme Court responded by reflecting on the policy and history of granting exclusive service licenses for ferries. “The act is but an exercise of
the power of the state recognized and exercised from
time immemorial, to control travel over and on its navigable streams and waters.” 176 Wash. at 489. Commercial ferries are subject to regulation and control in
order to preserve a benefit to the public of having a
mode of transportation available. The Supreme Court’s
decision included a recitation of the law from Norris v.

App. 68
Farmers’ & Teamsters’ Co., 6 Cal. 590, 65 Am. Dec. 535
(1856):
The reason for this, as given by Mr. Blackstone, is that the owner of a ferry is bound to
the public to keep it in repair and readiness
for the use of the citizens, and that he cannot
do if his franchise may be invaded, or if the
income of the bridge or ferry may be curtailed
by diverting passengers by means of a rival
unauthorized establishment of a like kind.
Therefore, although the public convenience is
the occasion of granting franchises of this nature, and, for example, the ferry established
on the road chartered is publici juris, yet the
property is private, and consequently an injury to it may be the subject of an action, for
no person could be expected to serve the public by bestowing his time, labor and money in
establishing a ferry or erecting a bridge, if its
value could be immediately destroyed by the
caprice or malice of private persons, in adopting means of drawing away the custom to
some establishment of their own.
Kitsap County Transp. Co., 176 Wash. at 490 (quoting
Norris, 6 Cal. at 595).
The Supreme Court further found that the granting by
the state of a right to erect a bridge or operate a ferry
over navigable waters did not violate Art. XII, Sec. 22,
because no person had a common right to engage in
either activity. 176 Wash. at 490 (citing Charles River
Bridge v. Warren Bridge, et al., 36 U.S. 420 (Story, J.,
dissenting)).

App. 69
[T]herefore the grant was no restriction of any
common right. It was neither a monopoly; nor,
in a legal sense, had it any tendency to a monopoly. It took from no citizen what he possessed before; and had no tendency to take it
from him. It took, indeed, from the legislature
the power of granting the same identical privilege or franchise to any other persons. But
this made it no more a monopoly, than the
grant of the public stock or funds of a state for
a valuable consideration.
176 Wash. at 490 (quoting Charles River Bridge, 36
U.S. at 607-08 (Story, J., dissenting)).
Upon considering the statutory schemes giving authority to the state to grant CPCN’s that result in exclusive
franchises, the Washington Supreme Court has opined
that such grants are not unconstitutionally monopolistic or oppressive. State v. Inland Forwarding Corp., 164
Wash. 412, 416, 2 P.2d 888 (1931). This is because the
use of the franchise is “subject to regulation and may
be canceled whenever the holders fail to adequately
and satisfactorily perform the duties of a common carrier.” 164 Wash, at 417 (considering Chapter 111 § 1,
eventually codified as RCW 81.68.020, regulation of
common carriers over public highways).
The relation of the holders of certificates towards the public, as to whether it is monopolistic, must be measured, not by their
inclination or choice of possible oppression,
but by ascertaining if they can be compelled
to render fair and reasonable service at proper

App. 70
rates to the ‘satisfaction of the commission,’
the state[.]
...
The monopoly interdicted by the Constitution
is one whose activities are hostile and oppressive to the common welfare, rather than those
which at all times are subject to the dominion,
judgment, and immediate regulation by the
state.
164 Wash. at 417.
This line of historical precedential cases recognizes
that the protection conveyed by the granting of a
CPCN permitting exclusive service is in return for the
state’s right to promote the public welfare by exercising its authority to cancel, suspend, revoke, alter, or
amend the terms of any certificate in its regulation of
ferry services for the common good. Because the Boat
Company has enjoyed since 1983 such an exclusive
grant, it is now subject to the Courtney’s challenge.
However, the provisions of RCW 81.84.020 and RCW
81.84.060 allow the Commission to affect the status of
the Boat Company including its rates if it fails to provide reasonable and adequate service, or violates the
orders, decisions, or regulations of the Commission.
Therefore, the Commission’s actions in permitting exclusive ferry service do not violate Art. XII, Sec. 22 of
the Washington Constitution.

App. 71
“The Public Use”
A commercial ferry is required to obtain a CPCN to operate a vessel or ferry for the public use for hire between fixed termini or over a regular route. RCW
81.84.010 (1). The term “commercial ferry” includes
any corporation, company, partnership, or person
“owning, controlling, leasing, operating, or managing
any vessel over and upon the waters of this state.”
RCW 81.04.010(13); WAC 480-51-020(1). “ ‘For hire’
means transportation offered to the general public for
compensation.” WAC 480-51-020(7).
The Courtneys’ claim that the WUTC has acted outside
its statutory authority. They allege that the described
proposed services in Options No. 1-5 are sufficiently restricted by the limitations of being a reserved customer
of a business to be excluded from “for the public use for
hire.” The parties have utilized dictionary definitions
and cases involving eminent domain to define “public
use.” The intervenor, Arrow Launch Service, offers a
number of dictionary definitions which boil down to a
use which is open to all members of the community.
(See Brief of Intervenor, pp. 7-9). When the Court is determining terms within a statute, the intent of the
legislature must be considered. Vance v. Dept of Retirement Systems, 114 Wn. App. at 577. When more than
one meaning of statutory language is possible, a reviewing court will apply the definition that promotes
the purpose of the statute. 114 Wn. App. at 577.
In Terminal Taxicab Company, Inc., v. Kutz, 241 U.S.
252 (1916), was held to be a common carrier coming

App. 72
under the jurisdiction of the District of Columbia Public Utility Act despite private contracts with hotels
which gave it the exclusive right to solicit in and about
the hotels, but limiting its service to guests of the hotel.
The contracts also required the company to furnish
enough cabs to meet the needs of guests of the hotels.
241 U.S. at 254-55. The Supreme Court observed that
the public was free to lodge at the hotel if it could afford to as well as to go “through the hotel door to call
on the plaintiff for a taxicab.” 241 U.S. at 255. The
Court held that the service affected such a considerable fraction of the public that it remained a common
carrier despite the contracts. “The public does not
mean everybody all the time.” 241 U.S. at 255.
Commercial ferry service has existed “for time immemorial” to provide a benefit to the general public.
Kitsap County Transp. Co., 176 Wash. at 489. The users
of the ferry in Kitsap County Transp. Co., were members of the general public. They had not been segregated into a particular class of identifiable individuals.
All passengers desired to travel between Bainbridge
Island and Seattle. 176 Wash. at 494. The Association’s
ferry would merely be using the same members of the
general public which would have been traveling on the
certificated ferry. Likewise, the Courtneys will be servicing the same members of the public who had been
traveling on Chelan Boat Company boats. The public
will merely be moving to another boat for travel.
The manner of purchasing passage exhibits the transaction with the general public. At the time a member
of the general public purchases activities from one of

App. 73
the Courtney or Stehekin businesses, they are given
the “option” to purchase a boat ticket. Common law
would classify the Courtneys’ boat service as a “common carrier.” A common carrier is one whose business
is to transport persons or property from place to place
for compensation and who holds himself out to serve
the public indifferently. Cushing v. White, 101 Wash.
172, 181, 172 P.229 (1918). The Courtneys will serve
the public indifferently. Customers are able to make a
reservation regardless of their identity.
The Courtneys have cited cases from other jurisdictions wherein transportation is provided by or arranged by a business as an incidental to the principal
activity. When examining the facts, it is apparent that
the Courtneys’ boat service is more than incidental.
Options No.’s 1 through 4 involve customers separately
paying for the voyage at a rate which presumably provides for the payment of debt, operation, upkeep, and
maintenance of the vessel. At $37.00, one-way, or
$74.00, round-trip, the boat service is not incidental to
the purchased Stehekin activities, but stands alone.
See Meisner v. Detroit, B.I. & W. Ferry Co., 154 Mich.
545, 548-49, 118 N.W. 14 (1908)(defendant owner of
amusement park and boats allowing access to park
was not a common carrier in that boat service was incidental to the business); see also State ex rel. Public
Utilities Comm’n v. Nelson, 65 Utah 457, 238 P. 237
(1925)(automobile omnibus owner transporting only
persons attending campground, for $20 a day regardless of the number of passengers, not a common carrier
and not required to obtain certificate; transportation

App. 74
was incidental or secondary to the business of the
camp).
D. Option 5 is not a Charter Service
Through its regulations, the WUTC has exempted
“charter services” from the requirement of obtaining a
CPCN. WAC 480-51-022(1).2 “ ‘[C]harter service’ means
the hiring of a vessel, with captain and crew, by a person or group for carriage or conveyance of persons or
property.” WAC 480-51-020(14).
In determining that the Courtneys’ fifth option was not
a “charter service”, the Courtneys argue that the
WUTC relied on an invalid definition of charter services by relying on a dissenting opinion in Iron Horse
Stage Lines, Inc. v. Public Utilities Commission, 125 Or.
App. 671, 866 P.2d 516 (1994). The dissenting justice
wrote, that pursuant to ORS 767.005(5), a charter service required a common trip purpose and “a complete,
cohesive group.” 125 Or. App. at 677 (Muniz, J.,
2

The language of WAC 48-51-022(1) is taken from Washington Laws, 1995, Chap. 361, § 3. This statute, codified at RCW
81.84.007, was repealed, effective July 1, 2002, pursuant to Laws
2000, Chap. 53, § 1. The laws were of limited duration requiring
excursion services to have CPCN’s. See Wash. Laws 1995, Chap.
361, §§ 2, 3; Wash. Laws 2000, Chap. 53, § 2. Testimony for ESHB
1922 reflected a concern to ensure service by those who, at considerable time and expense, had obtained UTC operating authority. Senate Bill Report, ESHB 1922, pg 2 (http://lawfilesext.leg.
wa.gov/biennium/1995-96/Pdf/Bill%20Reports/Senate/1922-S.SBR.
pdf). The exemption of “charter services” from the CPCN requirement is redundant when considering the fixed termini or regular
route language of RCW 8184.010(1).

App. 75
dissenting). Washington’s Legislature has not provided
such a definition.3
However pursuant to RCW 81.04.010(13), a commercial ferry is defined broadly to include any person or
company “owning, controlling, leasing, operating, or
managing any vessel over and upon the waters of this
state.” A commercial ferry is subject to obtaining a
CPCN if the ferry operates between fixed termini or
over a regular route. RCW 81.84.010(1).
“Regular” is defined by Merriam-Webster as “recurring, attending, or functioning at fixed, uniform, or
normal intervals <a regular income> <a regular
churchgoer> <regular bowel movements> . . . .” www.
merriam-webster.com/dictionary/regular. Option No. 5
would involve a vessel running regular routes between
federally-owned docks at Stehekin and either the federally-owned dock at Fields Point Landing or the Manson Bay Marina. (Admin. Record, pg 27). “Operations
under private charter are not conducted between fixed
termini, nor upon any regular schedule.” North Bend
Stage Lines, Inc. v. Schaaf et al., 199 Wash. 621, 627, 92
P.2d 702 (1939). Consequently, Option No. 5 is not a
charter service.

3

But see RCW 81.70.020 (“charter party carrier” means
every person engaged in transportation over the public highways
of a group pursuant to a common purpose and under a single contract).

App. 76
E. Commission’s Action not Arbitrary and
Capricious
The Courtneys final argument for reversing the Order
by the WUTC is that its decision was arbitrary and capricious. When considering a claim that agency action
was arbitrary and capricious, a reviewing court examines “whether the decision constitutes ‘willful and unreasoning action, taken without regard to or
consideration of the facts and circumstances surrounding the action.’ ” Spokane County v. Eastern Washington Growth Management Hearings Bd., 176 Wn. App.
555, 565-66, 309 P.3d 673 (2013), rev. denied, 179
Wn.2d 1015 (2014). The Courtneys argue that the Order is arbitrary and capricious in that it does not utilize exemptions authorized by the legislature for auto
transportation companies.
RCW 81.68.040 provides that an “auto transportation
company” must obtain a CPCN if it transports persons
between fixed termini or over a regular route. The automobile transportation act does not apply to persons
who own taxicabs, hotel buses, school buses, or any
other carrier which is not an auto transportation company. RCW 81.68.015.4 Consistent with these
4

RCW 81.68.015 provides other exceptions: (1) Persons operating a vehicle within the city limits of towns and for a distance
not exceeding 3 miles beyond the limits; (2) commuter ride sharing; (3) if commission finds that service does not serve and essential transportation purpose, is solely for recreation, and would not
adversely affect the holder of a certificate; and (4) the service is
provided pursuant to a contract with a state agency or funded by
a grant issued by the department of transportation and exemption is otherwise in the public interest.

App. 77
exclusions, the WUTC has identified exempt operations such as taxi cabs, hotel buses, or school buses.
WAC 480-30-011 (6). The WUTC also exempts private
carriers who utilize their own cars as an incidental adjunct to a private business. In addition, the WUTC exempts vehicles transporting transient air flight crews
or in-transit airline passengers between an airport and
temporary hotel accommodations under an arrangement between an airline and a passenger transportation company. WAC 480-30-011 (8), (9).
The WUTC has not carved out similar exemptions for
water transportation. However, it has adopted regulations exempting certain vessels and operations: (1)
Charter services; (2) passenger-carrying vessels departing and returning to the point of origin without intermediate stops; (3) historical vessels or replicas
operated by non-profits or governmental agencies; and
(4) excursion services. WAC 480-51-022.
“It is a well settled rule of statutory construction that
exceptions to legislative enactments must be strictly
construed,” Hall v. Corporation of Catholic Archbishop
of Seattle, 80 Wn.2d 797, 801, 498 P.2d 844 (1972). The
Courtneys have the burden of proving that they qualify for an exception to the commercial ferry act. See 80
Wn.2d at 847 (proponent has the burden of proving
every fact essential to qualify for the exception).
The exemptions concerning auto transportation companies are not available for commercial ferries. See
RCW 81.68.015 The legislature has elected not to authorize such exemptions for commercial ferries. The

App. 78
regulations adopted by the WUTC are consistent with
the directives of the legislature. Compare RCW
81.84.010 (requiring CPCN for vessels for public use
traveling between fixed termini or a regular route)
with WAC 480-51-022 (exempting certain operations of
vessels for public use). The Court must give substantial weight to the legal interpretations of the agency
when it is acting within its realm of expertise. See
Vance v. Dep’t of Retirement Sys., 114 Wn. App. at 576.
Therefore, the Courtneys have not proven that the actions by the WUTC are arbitrary and capricious.
CONCLUSION
The Courtney’s petition for review is denied. The Court
finds that each of the Options Nos.1-5 offered by the
Courtney’s is “for the public use”. In addition, Option
No. 5 is not a charter service exempt from the necessity
of obtaining a certificate of public convenience and necessity.
The Court requests that counsel prepare the Court’s
Order.
Sincerely,
/s/ Alicia H. Nakata
Alicia H. Nakata
Judge

App. 79
[Service Date November 16, 2015]
BEFORE THE WASHINGTON
UTILITIES AND TRANSPORTATION
COMMISSION
In the Matter of the Petition of
James and Clifford Courtney
for a Declaratory Order on the
Applicability of Wash. Rev.
Code § 81.84.010(1) and Wash.
Admin. Code § 480-51-025(2).

)
)
)
)
)
)

DOCKET
TS-151359
ORDER 01
DECLARATORY
ORDER

BACKGROUND
1

On July 1, 2015, James and Clifford Courtney (collectively, Courtneys) jointly filed with the Washington Utilities and Transportation Commission
(Commission) a Petition for a Declaratory Order
(Petition). The Petition seeks an order on the applicability of the certificate of public convenience
and necessity (CPCN) requirement set forth in
RCW 81.84.010(1) and WAC 480-51-025(2) to boat
transportation service on Lake Chelan for customers or patrons of specific businesses or groups of
businesses.

2

The Courtneys propose five alternative services
they would offer from Memorial Day weekend
through early October each year. At the core of
each service is a scheduled run between the federally-owned dock in Stehekin and the federallyowned dock in either Fields Point Landing or Manson Bay Marina. The boat would leave Stehekin at
10:00 a.m. and arrive at noon, then leave Fields
Point or Manson Bay at 12:30 p.m. and arrive in

App. 80
Steheki n at 2:30 p.m. The Courtneys propose a
one-way fare of $37 for each adult passenger or
$74 round trip. The primary difference among the
five routes are the types of passengers the boat
would carry:
Proposal 1 (Lodging Customers of Stehekin Valley Ranch) – Passengers would be
limited to persons with confirmed reservations to stay overnight at Stehekin Valley Ranch, owned by Clifford Courtney
and his wife. The boat transportation service would be owned by Clifford Courtney,
and make no intermediate stops.
Proposal 2 (Lodging Customers and Customers of Other Activities Offered at Stehekin Valley Ranch) – In addition to
persons with reservations to stay at the
ranch, passengers would include anyone
with reservations to participate in any of
the activities the ranch offers, including
activities provided by Stehekin Outfitters, run in part by Clifford Courtney’s
son. Again, the boat transportation service would be owned by Clifford Courtney
and would make no intermediate stops.
Proposal 3 (Customers of Courtney Family-owned Businesses) – Passengers
would be limited to anyone with reservations at any business owned by Clifford or
James Courtney or their extended family,
including but not limited to the Stehekin
Valley Ranch. The boat would make intermediate stops at, or stand-alone trips to,

App. 81
other points on Lake Chelan as necessary
to access the businesses. The boat transportation service would be owned by
James and Clifford Courtney.
Proposal 4 (Customers of Stehekin-Based
Businesses) – Passengers could be anyone with reservations at any Stehekinbased businesses that want to use the service, including but not limited to Courtney family-owned businesses. The boat
would make intermediate stops at, or
stand-alone trips to, other points on Lake
Chelan as necessary to access the businesses. The boat transportation service
would be owned by James and Clifford
Courtney.
Proposal 5 (Charter by Stehekin-based
Travel Company) – Passengers would be
restricted to persons who have purchased
a travel package from a Stehekin-based
travel agency that is not affiliated with
the Courtneys but would charter the boat
from the Courtneys. The boat would make
intermediate stops at, or stand-alone
trips to, other points on Lake Chelan as
necessary to access the travel locations.
The boat transportation service would be
owned by James and Clifford Courtney.
3

The Courtneys contend that none of the services
they propose require a CPCN because they would
not be “for the public use for hire” as that term is
used in RCW 81.84.010(1). Passage would not be
available to the public at large but would be limited to persons who are demonstrated customers

App. 82
of specific businesses. The Courtneys maintain
that case law from other states establishes that
such services are “private,” not provided by common carriers, and are not subject to regulation or
restriction. Indeed, the Courtneys argue, the Commission expressly does not regulate comparable
services in other transportation contexts, including hotel buses and private vehicles used as an adjunct to a company’s business.
4

On July 2, 2015, the Commission issued a notice
to all interested person setting a deadline of July
17, 2015, to submit a statement of fact and law on
the issues raised in the Petition. The Commission
received responsive comments or a statement of
law and fact from Commission Staff (Staff ), Arrow
Launch Service, Inc. (Arrow), and Lake Chelan
Recreation, Inc. d/b/a Lake Chelan Boat Company
(LCBC) and heard oral argument from the Courtneys and all commenters on October 21, 2015. Michael E. Bindas, Institute for Justice, Bellevue,
Washington, represents the Courtneys. Julian
Beattie, Assistant Attorney General, Olympia,
Washington, represents Staff. David W. Wiley, Williams Kastner & Gibbs PL LC, Seattle, Washington, represents Arrow. Jack Raines, President,
LCBC, pro se, Chelan, Washington, represents
LCBC.

5

Staff interprets RCW 81.84.010(1) differently
than the Courtneys. While recognizing that customers of one or more businesses represent a subset of the public at large, Staff believes that such
a subset is sufficiently large that the distinction is
meaningless. For all intents and purposes, according to Staff, all of the services the Courtneys

App. 83
propose would be “for the public use for hire”
within the meaning of the statute.
6

Arrow concedes that it does not operate on Lake
Chelan but states that as a commercial ferry service operator in Washington, it has a substantial
interest in the Commission’s interpretation of
statutes that govern the industry. Arrow believes
that the Commission should address the issues
the Courtneys raise in the context of an adjudicated application for CPCN, rather than through
a petition for declaratory order.

7

LCBC holds the existing CPCN for ferry service on
Lake Chelan. LCBC states that permitting the
Courtneys to operate a competing vessel only during the profitable months of the year would
threaten LCBC’s financial viability and its ability
to provide safe, reliable, and dependable service at
reasonable prices year-round.

8

RCW 34.05.240(5) and WAC 480-07-930(5) require
the Commission to take one of the following actions within 30 days after receiving the Petition:
(1) enter a declaratory order; (2) set the matter for
specified proceedings to be held no more than 90
days after receiving the Petition; (3) set a specified
time no more than 90 days after receiving the Petition to enter a declaratory order; or (4) decline to
enter a declaratory order. The Commission may
extend either of the 90 day time limits for good
cause. To accommodate oral argument and the
schedules of all concerned, the Commission extended the deadline for Commission action on the
Petition to December 2, 2015.

App. 84
DISCUSSION
9

No commenter disputes the Courtneys’ claim that
they have satisfied the prerequisites for a declaratory order under RCW 34.05.240(1). We agree that
the Courtneys have demonstrated compliance
with three of the four requirements – uncertainty
exists, as well as an actual controversy, and the
uncertainty adversely affects the Courtneys. We
are less certain that the adverse effect of the uncertainty on the Courtneys outweighs any adverse
effects on others or on the general public that may
likely arise from the order requested, but we accept that premise for purposes of this order.1

10 The substantive issue before us is whether RCW
81.84.010(1) requires the Courtneys to obtain a
CPCN from the Commission to offer any of the five
service offerings the Courtneys propose to provide.
The statute states in relevant part,
A commercial ferry may not operate any
vessel or ferry for the public use for hire
between fixed termini or over a regular
route upon the waters within this state,
including the rivers and lakes and Puget
Sound, without first applying for and obtaining from the commission a certificate
declaring that public convenience and
1

Arrow raises the issue that the Commission “may not enter
a declaratory order that would substantially prejudice the rights
of a person who would be a necessary party and who does not consent in writing to the determination of the matter by a declaratory
order proceeding.” RCW 34.05.240(7). LCBC stated during oral
argument that it would not provide such consent. This order, however, does not substantially prejudice LCBC’s rights and thus its
written consent is not required.

App. 85
necessity require such operation. (Emphasis added.)
There is no dispute that the Courtneys propose to
operate a vessel or ferry between fixed termini or
over a regular route upon the waters within this
state. The sole issue is whether those proposed operations would be “for the public use for hire” as
that phrase is used in the statute. We conclude
that they would.
11 The legislature did not define “for the public use
for hire,” and no Washington court has interpreted
the meaning of that phrase in RCW 81.84.010(1).
Nor has the Commission. We therefore look to the
language of the statute to determine the legislature’s intent. The dictionary definition of “public”
in this context is “accessible to or shared by all
members of the community.”2 A “community,” in
turn, is “a body of individuals organized into a
unit” or “linked by common interests.”3 The word
“hire” means “payment for the temporary use of
something.”4 Thus the plain meaning of the statutory language is that a CPCN is required to operate any ferry for payment that is accessible to all
persons that are part of a group with common interests.
2

Webster’s Third New International Dictionary 1836 (G&C
Merriam Co. 1976). Similarly, the Oxford English Dictionary defines “public” as “open to or shared by all people.” http://www.oxford
dictionaries.com/us/definition/american_english/public.
3
Id. 460.
4
Id. 1072. See WAC 480-51-020(7) (“The term ‘for hire’
means transportation offered to the general public for compensation.”).

App. 86
12 We conclude that the Courtneys propose to operate just such a service. Each of their five proposals
involves a charging a fee to serve any and all persons who are members of a group with common interests, i.e., customers of various businesses
located in and around Stehekin. As such, the
Courtneys’ proposed operations would constitute
service “for the public use for hire” requiring a
CPCN.
13 The Courtneys contend that their proposed services are not “for the public use for hire” because
they would not be available to everyone. Rather,
the services would be “solely for customers with a
preexisting reservation for services or activities at
a specific lodging facility or other Courtney-family
or Stehekin-based business.”5 We agree with Staff
that this is a distinction without a difference. Any
member of the public may reserve lodging or other
unspecified services or products at these businesses. Indeed, the United States Supreme Court
found in similar circumstances that limiting service to customers of hotels with which a taxicab
company had contracted did not change the public
nature of the service:
We do not perceive that this limitation removes the public character of the service,
or takes it out of the definition in the act.
No carrier serves all the public. His customers are limited by place, requirements, ability to pay and other facts. But
the public generally is free to go to hotels
if it can afford to, as it is free to travel by
5

Petition ¶ 131

App. 87
rail, and through the hotel door to call on
the plaintiff for a taxicab. We should hesitate to believe that either its contract or
its public duty allowed it arbitrarily to refuse to carry a guest upon demand. We
certainly may assume that in its own interest it does not attempt to do so. The service affects so considerable a fraction of
the public that it is public in the same
sense in which any other may be called so.
The public does not mean everybody all
the time.6
14 The Courtneys correctly observe that the Commission is not bound by this decision, but we find the
Court’s reasoning persuasive. We agree that “[t]he
public does not mean everybody all the time.” The
Courtneys have not estimated the number of potential customers for any of the five proposed service options, but we can reasonably infer that, like
the taxicab company’s customers, their potential
customers represent “so considerable a fraction of
the public that it is public in the same sense in
which any other may be called so.” We conclude
that the proposed limitations on the potential customers described in these five scenarios does not
remove the public character of such transportation services.
6

Terminal Taxicab Co. v. Kutz, 241 U.S. 252, 255, 36 S. Ct.
583, 60 L. Ed. 984 (1916) (emphasis added); accord Surface
Transp. Corp. v. Reservoir Bus Lines, Inc., 271 A.D. 556, 560, 67
N.Y. S. 2d 135 (1946) (the fact that a bus line “carries only tenants
of the landlords with whom it has contracted or with whom it may
hereafter contract is not a sufficient limitation to remove the public character of its service”).

App. 88
15 The Courtneys maintain that the Commission
reached the opposite conclusion in the context of
auto transportation services. They observe that
the Commission has promulgated a rule that excludes from regulation persons operating hotel
buses, private carriers who transport passengers
as an incidental adjunct to another private business, and transportation of airline flight crews and
in-transit passengers between an airport and temporary hotel accommodations.7 The Courtneys
claim that the ferry services they propose to provide are comparable to these auto transportation
services that the Commission does not regulate.
16 This claim ignores that the Commission promulgates rules that implement statutes; it does not
enact statutes. The legislature provided three specific exemptions from regulation for commercial
ferries: (1) vessels that primarily transport freight
other than vehicles if no more than ten percent of
its gross revenues come from transporting passengers or vehicles;8 (2) vessels used solely to provide
nonessential recreation service that does not adversely affect the rates or services of an existing
certificated provider;9 and (3) vessels operated by
a governmental entity if no certificated company
provides that service.10 None of these exemptions
applies to the five types of service the Courtneys
propose to provide.

7

WAC 480-30-011(g), (i) & (j).
RCW 81.84.010(1).
9
RCW 81.84.010(2).
10
RCW 81.84.010(3).
8

App. 89
17 By the same token, the legislature, not the Commission, excludes certain auto transportation
services from regulation. By statute, auto transportation regulation does not apply to persons operating “taxicabs, hotel buses, . . . or any other
carrier that does not come within the term ‘auto
transportation company’ as defined in RCW
81.68.010.”11 All of the exclusions the Courtneys
cite from the Commission’s rule derive from this
legislative directive.12 Those statutory exemptions
are specific to auto transportation companies, and
the legislature did not extend them to commercial
ferries. Unlike RCW 81.84.010(1), moreover, the
statute governing auto transportation companies
does not include the requirement that such companies operate vehicles “for the public use for
hire,” even though the remainder of the operative
language is virtually identical.13 We construe this
omission, as we must, to be intentional. Had the
legislature intended the Commission to regulate
11

RCW 81.68.015.
Arranged transportation of airline flight crews and intransit passengers between an airport and their hotel is a variation of a “hotel bus.” The statute defines “auto transportation company,” in relevant part, as any person operating any “vehicle used
in the business of transporting persons and their baggage,” RCW
81.68.010(3), which does not include private carriers using their
own vehicles to transport passengers as an incidental adjunct to
another established private business the private carriers own or
operate.
13
See RCW 81.68.040 (“An auto transportation company
shall not operate for the transportation of persons and their baggage for compensation between fixed termini or over a regular
route in this state, without first having obtained from the commission under this chapter a certificate declaring that public convenience and necessity require such operation.”).
12

App. 90
commercial ferries the same as auto transportation companies, the legislature would have used
comparable language in the governing statutes.
The legislature has not exempted from commercial ferry regulation the type of operations the
Courtneys propose, and the Commission may not
do so absent statutory authority.14
18 The Courtneys, however, argue that the Commission has exempted “charter services” from the
commercial ferry CPCN requirement,15 which the
Commission defines as “the hiring of a vessel, with
captain and crew, by a person or group for carriage
or conveyance of persons or property.”16 The Courtneys argue that their fifth proposal, to charter
boat services to an unaffiliated travel company
that organizes travel packages for Stehekin visitors, is just such a “charter service.”
19 The legislature did not create an exemption from
the “for the public use for hire” requirement in
RCW 81.84.010(1) for “charter service.” Accordingly, we must construe this qualification in our
rules to be consistent with the statute. In the context of passenger transportation services, the
Commission has defined a “charter carrier” more
expansively as “every person engaged in the transportation of a group of persons who, pursuant to a
common purpose and under a single contract, have
acquired the use of a motor bus to travel together
as a group to a specified destination or for a
14

E.g., In re Consolidated Cases Concerning the Registration
of Electric Lightwave, Inc., 123 Wn.2d 530, 869 P.2d 1045 (1994).
15
WAC 480-51-022(1).
16
WAC 480-51-020(14).

App. 91
particular itinerary, either agreed upon in advance
or modified by the chartering group after having
left the place of origin.”17 This definition comports
with our interpretation of “charter services” in the
Commission rules governing commercial ferries.
Charter services provide transportation to a group
of persons that hires the entire ferry to travel together to and from a mutually agreed destination.
20 The Courtneys’ fifth proposal is not such a “charter service.” They do not propose to make their vessel available for hire by cohesive groups travelling
together. Rather, the Courtneys would have an exclusive arrangement with a travel company that
would hire the vessel and aggregate individuals
who have booked trips separately to travel to businesses in and around Stehekin. Such individuals
would not be limited by geography or technology;
for example, any customer, whether he or she be in
the United States or abroad, could make a booking
over the Internet with the travel company. Rationally, we would categorize such a service as a commercial ferry service pursuant to RCW 81.84.010.
The only practical distinction between this proposal and the Courtneys’ fourth proposal is that
passengers would book passage on the vessel with
a travel company, rather than the Courtneys. Such
a distinction does not change the public character
of the service provided or remove it from the statutory prerequisite to obtain a CPCN.

17

WAC 480-30-036 (emphasis added).

App. 92
21 The Oregon Court of Appeals decision in Iron
Horse Stage Lines, Inc. v. Public Util. Comm’n18 is
not to the contrary. In that case a corporation engaged a broker licensed under Oregon law to arrange regular shuttle service between Eugene and
the Willamette ski area using at least three different motor carriers, each of which was authorized
to provide irregular service. The company with the
CPCN to serve this route sought a cease and desist
order against the corporation and the broker,
claiming they had conspired to provide regular
route service in violation of Oregon statutes. The
court upheld the Public Utility Commission of Oregon’s determination not to issue that order because the corporation and the broker were not
“carriers” under Oregon law.
22 We question whether the described arrangement
in Iron Horse would be permissible in Washington,
but neither the court nor the Oregon commission
addressed the issue presently before us, i.e., the legal rights of the carrier that actually provides the
transportation service. Indeed, we agree with the
dissenting judge De Muniz, who wrote that the
majority incorrectly did not address the key issue
in the case, namely whether the service being provided was a “charter service”:
The legislative history of ORS 767.005(5)
demonstrates that a charter service [is]
not intended to be used as a subterfuge to
provide competition for regular route service without meeting the requirements
to be licensed for a regular route. The
18

125 Ore. App. 671, 866 P.2d 516 (1994).

App. 93
requirement that a charter service be a
group that not only has a common trip
purpose but is also a complete cohesive
group, avoids improper use of a charter
service.19
23 The Washington Supreme Court also agreed that
charter service cannot be used as a subterfuge for
commercial ferry service. In a case involving ferry
service between Seattle and Bainbridge Island, a
group of Bainbridge Island residents created a
“ferry association” whose membership was open to
anyone wishing to travel to Seattle and willing to
pay the nominal fee. The association chartered a
vessel from a ferry company that had previously
been denied a CPCN to compete with the existing
certificate holder. The company agreed to operate
the vessel on regular scheduled trips to transport
association members and their families, guests,
and vehicles between the island and Seattle. The
Court found that this arrangement did not change
the public character of the service. “While the
charter [agreement] provided that the ferry association would employ pursers to sell tickets and
collect fares, it is quite apparent that, stripped of
this pretense, the transaction was one whereby
the [ferry company] was to furnish the boat and
the ferry association was to furnish the passengers.”20 The Court affirmed the lower court’s order
enjoining this service as unlawful competition
with the certificated carrier. The Courtneys’ fifth
proposal is the same type of pretense, which
19

Id. at 678-79.
Kitsap County Transp. Co. v. Manitou Beach-Agate Pass
Ferry Ass’n, 176 Wn. 486, 495, 30 P.2d 233 (1934).
20

App. 94
similarly fails to distinguish that service from regulated commercial ferry service.
24 The Courtneys nevertheless cite judicial decisions
in Georgia and Michigan purportedly holding that
“[t]ransportation for one’s self, goods, employees,
and customers, . . . if a ferry at all, was a private
ferry and did not require a franchise from the
state.”21 Not only are those decisions not binding
on the Commission, those other state courts were
interpreting different statutory language in different factual circumstances than those presented
here, and the holdings are more limited than the
Courtneys claim.22 None of these cases, in either
21

Petition ¶ 132 (emphasis in original).
In Futch v. Bohannon, 134 Ga. 313, 67 S.E. 814 (1910), the
Georgia Supreme Court modified a lower court injunction prohibiting a sawmill operator from operating a competing ferry service
“to allow the defendant to employ a flat-boat or other suitable
means of conveying his employees and his wagons and teams
across the stream.” The transportation did not involve payment
for passage or the availability of service to company customers. In
Meisner v. Detroit Belle Island & Windsor Ferry Co., 154 Mich.
545, 549, 118 N.W. 14 (1908), the Michigan Supreme Court upheld the right of a company to deny passage to a disruptive customer on the boat it operated between Detroit and an island
amusement park the company owned: “The defendant can exact
an entrance fee at the park, or it can compensate itself by charging for transportation to it and admit its patrons otherwise free
to the park. The ride upon the boat and the use of the grounds are
part of the same scheme for pleasure furnished by the defendant
to those whom it may choose to carry.” The company’s right to
operate the boat was not before the court, and the ferry was effectively an entrance to the company’s amusement park, not a separate service. In Self v. Dunn & Brown, 42 Ga. 528 (1871), the
Georgia Supreme Court held that a mill operating a ferry as an
accommodation for its customers was liable only for its gross negligence under Georgia statutes because the mill did not charge a
22

App. 95
their core arguments or ultimate decisions, alters
our interpretation of Washington law.
25 Each of the five proposed services described in the
Petition requires the operation of a vessel “for the
public use for hire” under RCW 81.84.010(1). Accordingly, the Courtneys must obtain a CPCN
from the Commission before offering any of those
services.
ORDER
THE COMMISSION ORDERS That
26 (1) The Commission grants the request for a declaratory order in the Petition of James and
Clifford Courtney for a Declaratory Order on
the Applicability of Wash. Rev. Code
§ 81.84.010(1) and Wash. Admin. Code § 48051-025(2) but denies the request for the declaratory order the Petition proposes.
27 (2) James and Clifford Courtney may not operate
any vessel or ferry on Lake Chelan to provide
any of the five services they describe in their
Petition without first applying for and obtaining from the Commission a certificate declaring that public convenience and necessity
require such operation consistent with RCW
81.84.010(1) and WAC 480-51-025(2).

fare for passage on the ferry and thus was not a bailee for hire.
Again, the court did not consider whether the mill had a right to
operate the ferry, and the mill did not receive compensation for
the ferry service.

App. 96
DATED at Olympia, Washington, and effective
November 16, 2015.
WASHINGTON UTILITIES AND
TRANSPORTATION COMMISSION
DAVID W. DANNER, Chairman
PHILIP B. JONES, Commissioner
ANN E. RENDAHL, Commissioner

App. 97
134 S.Ct. 2697
Supreme Court of the United States
James COURTNEY, et al., petitioners,
v.
David DANNER, Chairman and
Commissioner of the Washington Utilities
and Transportation Commission, et al.
No. 13–1064.
June 2, 2014.
Case below,
736 F.3d 1152.
Petition for writ of certiorari to the United States
Court of Appeals for the Ninth Circuit denied.

App. 98
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JAMES COURTNEY and CLIFFORD
COURTNEY,
Plaintiffs-Appellants,
v.

No. 12-35392
D.C. No.
2:11-cv-00401TOR

JEFFREY GOLTZ, chairman and commissioner; PATRICK OSHIE, commissioner; PHILIP JONES, commissioner,
in their official capacities as officers
and members of the Washington
Utilities and Transportation
Commission; DAVID DANNER, in his
official capacity as executive director
of the Washington Utilities and
Transportation Commission,

OPINION

Defendants-Appellees.
Appeal from the United States District Court
for the Eastern District of Washington
Thomas O. Rice, District Judge, Presiding
Argued May 6, 2013
Submitted December 2, 2013
Seattle, Washington
Filed December 2, 2013

App. 99
Before: Michael Daly Hawkins, Sidney R. Thomas,
and Jacqueline H. Nguyen, Circuit Judges.
Opinion by Judge Nguyen
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

COUNSEL
Michael Eugene Bindas (argued) and Jeanette Motee
Petersen, Institute for Justice, Bellevue, WA, for
Plaintiffs-Appellants.
Fronda Colleen Woods (argued), Assistant Attorney
General, Office of the Attorney General, Olympia, WA,
for Defendants-Appellees.
David Wiley, Williams Kastner, Seattle, WA, for Amicus
Curiae.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

OPINION
NGUYEN, Circuit Judge:
James and Clifford Courtney challenge Washington statutes that require a certificate of “public convenience and necessity” (“PCN”) in order to operate a ferry
on Lake Chelan in central Washington state. The
Courtneys claim that these state laws abridge their
right to use the navigable waters of the United States,
in violation of the Privileges or Immunities Clause of
the Fourteenth Amendment. The Washington Utilities
and Transportation Commission and its various officers and directors (collectively, “WUTC”) successfully
moved to dismiss the case and this appeal followed.

App. 100
The Courtneys’ first claim for relief challenges the
constitutionality of the PCN requirement as applied to
the provision of public ferry service on Lake Chelan.
We hold that the Privileges or Immunities Clause of
the Fourteenth Amendment does not encompass a
right to operate a public ferry on intrastate navigable
waterways and affirm the district court’s dismissal of
this claim. The Courtneys’ second claim challenges the
PCN requirement as applied to the provision of boat
transportation services on Lake Chelan solely for patrons of specific businesses. As to this claim, we find
that the district court properly abstained from deciding the issue under the Pullman doctrine, but that it
should have retained jurisdiction instead of dismissing
the claim. Therefore, we vacate and remand the second
claim with instructions that the district court retain
jurisdiction over the constitutional challenge.
BACKGROUND
I
James and Clifford Courtney are fourth-generation residents of Stehekin, a small unincorporated
community on the northwest end of Lake Chelan in
central Washington state. Lake Chelan is a narrow,
fifty-five-mile long lake, which has been designated by
the Army Corps of Engineers as a “navigable water of
the United States.” The northwest portion of Lake Chelan, including Stehekin, is part of the Lake Chelan National Recreation Area. Although it is only accessible
by boat, plane, or foot, Stehekin has long been a

App. 101
summer destination for tourists. See WUTC, Appropriateness of Rate and Service Regulation of Commercial
Ferries Operating on Lake Chelan 3–4 (2010), available
at http://www.wutc.wa.gov/webimage.nsf/0/d068a7290f8
5512a882576ac007e2d73/ (“Ferry Report”). The Courtneys and their siblings own and operate several businesses in Stehekin, which provide lodging and
recreational activities such as white water rafting
tours and horseback riding.
Most tourists and residents reach Stehekin by way
of a public ferry operated by the Lake Chelan Boat
Company. The state has regulated ferry service on
Lake Chelan since 1911. By the 1920s, there were at
least four different ferry companies offering services
on Lake Chelan. Then, in 1927, the Washington legislature enacted a law that conditioned the right to operate a ferry service upon certification that such
service was required by “public convenience and necessity.”1

1

The Courtneys cite a 1927 Seattle Daily Times article in
support of their argument that the legislature’s goal in passing
the PCN requirement was to protect existing ferry owners from
competition, and have asked that we take judicial notice of this
article. Because we do not rely upon the article, we deny the motion.
The Ferry Report describes the rationale for the regulation
as follows: for certain industries that “typically have very high
capital costs, benefit from economies of scale, and provide an indispensable service to the public[,] . . . the legislature has made a
judgment that the public’s interest in reliable and affordable service is best served by a single, economically regulated provider
whose owners can make the sizeable investments needed to

App. 102
II
A
In its current form, Washington Revenue Code
§ 81.84.010 dictates that a “commercial ferry may not
operate any vessel or ferry for the public use for hire
between fixed termini or over a regular route upon the
waters within [Washington] . . . without first applying
for and obtaining from the [WUTC] a certificate declaring that public convenience and necessity require such
operation.” Wash. Rev. Code § 81.84.010(1). In order to
obtain a PCN certificate, a potential ferry operator
must prove that its proposed operation is required by
“public convenience and necessity,” and that it “has the
financial resources to operate the proposed service for
at least twelve months.” Id. § 81.84.020(1)–(2). If the
territory in which the applicant desires to set up operation is already served by a commercial ferry company,
no PCN certificate may be granted unless the applicant proves that the existing certificate holder: “[(a)]
has failed or refused to furnish reasonable and adequate service[; (b)] has failed to provide the service described in its certificate or tariffs after the time allowed
to initiate service has elapsed[;] or [(c)] has not objected to the issuance of the certificate as prayed for.”
Id. § 81.84.020(1).

initiate and maintain service without the threat of having customers drawn away by a competing provider.” Ferry Report 11.

App. 103
B
Since the statute’s enactment, only one PCN certificate has been issued for providing ferry services on
Lake Chelan. It is now held by Lake Chelan Recreation, Inc. d/b/a Lake Chelan Boat Company.2 In 1997,
James Courtney applied for a PCN certificate to operate a commercial ferry out of Stehekin. The Lake Chelan Boat Company objected, and the WUTC denied
Courtney’s application, finding that the Lake Chelan
Boat Company provided “reasonable and adequate service,” the proposed service might “tak[e] business from”
the company, and Courtney failed to satisfy the financial responsibility requirement. Courtney did not seek
judicial review of the WUTC’s decision. See Wash. Rev.
Code §§ 34.05.570, 34.05.574.
In 2006, James Courtney explored the possibility
of starting an on-call boat service out of Stehekin,
which he thought might fall within the “charter service” exemption to the PCN requirement. Because the
proposed service would need to utilize federally owned
docks, Courtney applied to the United States Forest
Service for a special-use permit, which required confirmation that the proposed service was actually exempt
from the PCN requirement. The WUTC initially opined
that a PCN certificate would not be needed for the proposed on-call boat service, but changed its mind after
the Lake Chelan Boat Company objected to the
2

At least four potential ferry operators have applied for a
PCN certificate over the last sixty years, but all were denied by
the WUTC after Lake Chelan Boat Company objected to the applications.

App. 104
proposal. Several months later, the WUTC again reversed course, indicating that the proposed service
would be exempt from the PCN requirement. However,
no formal decision was ever rendered. WUTC’s executive director, David Danner, did not respond to the Forest Service’s request for an advisory opinion on this
issue.
In 2008, Clifford Courtney wrote to David Danner,
inquiring whether various other kinds of boat transportation services (distinct from the proposed on-call
service) would require a PCN certificate. The suggested services included (a) one in which Clifford
would charter a boat and offer transportation as part
of a package for guests who intended to stay at his
ranch and go river rafting, and (b) a scenario in which
he would purchase his own vessel in order to transport
patrons of his various Stehekin-based businesses.
Danner responded that such services would require a
certificate because they would still be “for the public
use for hire,” and that it “[did] not matter whether the
transportation [Clifford] would provide [was] ‘incidental to’ ” other businesses. However, Danner noted
that his response merely reflected the opinion of the
WUTC staff and Courtney was free to pursue a formal
declaratory ruling by the commissioners provided that
“the existing certificate holder . . . agree[d] to participate” in the proceeding. Were Courtney simply to proceed with the proposed service, the WUTC could
initiate a “classification proceeding,” during which
Clifford would be required to testify and prove that his
activities did not require a PCN certificate. The WUTC

App. 105
also orally confirmed to Courtney that his proposed
services would likely require a PCN certificate.
C
In 2009, after Clifford Courtney wrote to the governor and several state legislators regarding the PCN
requirement, the legislature directed the WUTC to
conduct a study on the regulation of commercial ferry
services on Lake Chelan. The report by the WUTC,
which issued in January 2010, concluded that Lake
Chelan Boat Company was providing satisfactory service and recommended that there be no change to the
existing laws and regulations. The WUTC noted that
there might be flexibility under the existing law to permit some competition by exempting certain services
from the PCN certificate requirement, provided that
any such service would not “significantly threaten” the
existing certificate holder’s business.
D
In October 2011, the Courtneys sued the WUTC
and various commissioners and directors in their official capacities, seeking declaratory and injunctive relief pursuant to 42 U.S.C. § 1983 and 28 U.S.C. § 2201.
The Courtneys claimed that the PCN requirement
abridges their right to use the navigable waters of the
United States under the Privileges or Immunities
Clause of the Fourteenth Amendment, and is therefore
unconstitutional.

App. 106
The WUTC moved to dismiss the Courtneys’ complaint pursuant to Federal Rule of Civil Procedure
12(b)(6), and the district court granted the motion. The
district court dismissed the Courtneys’ first claim—
challenging the constitutionality of the PCN requirement as applied to the provision of public ferry service
on Lake Chelan—with prejudice. The district court
concluded that it was unclear that the “right to use the
navigable waters of the United States” was “truly a recognized Fourteenth Amendment right,” and that even
if it was, it did not extend to protect the right “to operate a ferry service open to the public.” The district court
dismissed the Courtneys’ second claim—challenging
the constitutionality of the PCN requirement as applied to provision of boat transportation services on
Lake Chelan solely for patrons of specific businesses—
without prejudice. As to the second claim, the court
held that the Courtneys lacked standing; their claim
was unripe; and, notwithstanding its ripeness finding,
the court would abstain pursuant to Railroad Commission of Texas v. Pullman Co., 312 U.S. 496 (1941).
DISCUSSION
I
To state a claim for relief under 42 U.S.C. § 1983,
the Courtneys must allege facts that, if true, constitute
a violation of a right guaranteed by the United States
Constitution. Balistreri v. Pacifica Police Dep’t, 901
F.2d 696, 699 (9th Cir. 1990). Their claim for declaratory relief under 28 U.S.C. § 2201 similarly requires

App. 107
that the Courtneys allege facts that, if true, would violate federal law. See Skelly Oil Co. v. Phillips Petroleum
Co., 339 U.S. 667, 672 (1950).
“We review de novo a district court’s dismissal for
failure to state a claim under Federal [Rule of ] Civil
[Procedure] 12(b)(6).” Aguayo v. U.S. Bank, 653 F.3d
912, 917 (9th Cir. 2011). In doing so, we take all factual
allegations in the complaint as true and construe them
in the light most favorable to the Courtneys. See id.
II
A
The Courtneys argue that the district court erred
in dismissing their first claim relating to the provision
of public ferry service because the Privileges or Immunities Clause of the Fourteenth Amendment protects the right “to use the navigable waters of the
United States.”3 We agree with the district court that
even if the Privileges or Immunities Clause recognizes
a federal right “to use the navigable waters of the
3

Section I of the Fourteenth Amendment reads:
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they reside.
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person
of liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.
U.S. Const. amend. XIV. § 1 (emphasis added).

App. 108
United States,” the right does not extend to protect the
Courtneys’ use of Lake Chelan to operate a commercial
public ferry.
In its seminal decision interpreting the Privileges
or Immunities Clause of the Fourteenth Amendment—
the Slaughter-House Cases, 83 U.S. 36 (1872)—the Supreme Court upheld a Louisiana statute that granted
a private company the exclusive right to operate a
slaughter-house on the Mississippi River. Id. at 58–61,
83. In doing so, the Court distinguished between rights
that accompany state citizenship and those that exist
by virtue of United States citizenship. Id. at 72–77. The
Court explained that the Fourteenth Amendment protects “the privileges or immunities of citizens of the
United States,” which are distinct from those that exist
by virtue of state citizenship. Id. at 73–74 (emphasis in
original).
The “privileges and immunities” referred to in Article IV are conferred by state citizenship and consist
of those rights “which are fundamental; which belong
of right to the citizens of all free governments, and
which have at all times been enjoyed by citizens of the
several States which compose this Union, from the
time of their becoming free, independent, and sovereign.” Id. at 76 (first emphasis added, second emphasis
in original). They fall under “the following general
heads: protection by the government, with the right to
acquire and possess property of every kind, and to pursue and obtain happiness and safety, subject, nevertheless, to such restraints as the government may

App. 109
prescribe for the general good of the whole.” Id. (internal quotation marks omitted).
By contrast, the “privileges or immunities” discussed in the Fourteenth Amendment consist of rights
“which ow[e] their existence to the Federal government, its National character, its Constitution, or its
laws.” Id. at 79 (emphasis added). In analyzing the legislative history of the Thirteenth and Fourteenth
Amendments, the Court noted that “the one pervading
purpose” of the amendments was to ensure “the freedom of the slave race, the security and firm establishment of that freedom, and the protection of the newlymade freeman and citizen from the oppressions of
those who had formerly exercised unlimited dominion
over him.” Id. at 71.
B
The Supreme Court in the Slaughter-House Cases
ultimately concluded that the rights asserted by the
butchers were rights “which belong to citizens of the
States as such,” and therefore the Court did not need
to “defin[e] the privileges and immunities of citizens of
the United States which no State can abridge, until
some case involving those privileges [made] it necessary to do so.” Id. at 78–79. However, the Court suggested some examples of inherently federal privileges,
such as the right “to demand the care and protection of
the Federal government over his life, liberty, and property when on the high seas . . . [,][t]he right to peaceably assemble and petition for redress of grievances, . . .

App. 110
[and t]he right to use the navigable waters of the United
States, however they may penetrate the territory of the
several States.” Id. at 79 (emphasis added).
The Courtneys’ case is predicated entirely on the
Supreme Court’s passing reference to a “right to use
the navigable waters of the United States”—a phrase
that has yet to be interpreted by a single federal appellate court in the privileges or immunities context. As
such, the boundaries of the term “use” have not been
established. Still, we are not faced with an entirely
blank slate. The historical backdrop upon which the
Supreme Court enunciated the navigable waterway
right strongly suggests that the Court did not intend a
panoptic definition of the term. Moreover, our Privileges or Immunities Clause jurisprudence does not
support an interpretation that would foreclose states
from regulating public transportation upon their intrastate navigable waterways. Thus, even if we assume
that the examples of rights deriving from national citizenship set forth by the Supreme Court in the Slaughter-House Cases are not mere dicta, we nevertheless
find that the right “to use the navigable waters of the
United States” does not include a right to operate a
public ferry on Lake Chelan.
Turning to the historical context, Article 4 of the
Northwest Ordinance of 1787 established navigable
waters within newly federal territory as “common
highways” that would be “forever free,” even in the
event portions of the Northwest Territory were incorporated into newly formed States. Ordinance of 1787
art. IV; Econ. Light & Power Co. v. United States, 256

App. 111
U.S. 113, 118–19 (1921) (“The public interest in navigable streams . . . does not arise from custom or implication, but has a very definite origin[;] [b]y article 4 of
the compact in the Ordinance of July 13, 1787 . . . it
was declared: ‘The navigable waters . . . shall be common highways, and forever free . . . as to the citizens of
the United States. . . .’ ”).
Cases interpreting the language in the Northwest
Ordinance emphasize the states’ responsibility to
avoid destroying navigable waters or rendering them
unnavigable.4 The Supreme Court has explicitly held
that the Ordinance did not prevent states from
4

See, e.g., Ill. River Packet Co. v. Peoria Bridge Ass’n, 38 Ill.
467, 479 (1865) (“The ordinance does not mean that the river and
its navigation shall be . . . free from all and every condition, but
only that it shall be free from obstruction. . . .”); Nedtweg v. Wallace, 237 Mich. 14, 20 (1926) (“[T]he [1787] ordinance accomplished no more than to preserve the rivers and lakes as common
highways and in no sense prevents the state from granting the
soil under navigable waters to private owners. The state is sovereign of the navigable waters within its boundaries, bound, however, in trust, to do nothing in hindrance of the public right of
navigation, hunting, and fishing.” (citation omitted)); Sewers v.
Hacklander, 219 Mich. 143, 150 (1922) (holding that Article 4 of
the Northwest Ordinance has “no bearing upon riparian rights
and ownership, except [if ] there is an interference with navigation”); Hogg v. Zanesville Canal & Mfg. Co., 5 Ohio 410, 416
(1832) (“Every citizen of the United States has a perfect right to
its free navigation. A right derived, not from the legislature of
Ohio, but from a superior source. With this right the legislature
can not interfere. In other words, they can not, by any law which
they may pass, impede or obstruct the navigation of this river.”);
Spooner v. McConnell, 22 F. Cas. 939, 945 (Ohio C.C. 1838)
(“[T]he legislature may improve . . . the navigable rivers of the
state, and authorize the construction of any works on them which
shall not materially obstruct their navigableness.”).

App. 112
granting exclusive ferry franchises, so long as such
franchises did not encroach on the federal commerce
power. See Fanning v. Gregoire, 16 How. (U.S.) 524, 534
(1853) (holding that “the free navigation of the Mississippi river . . . does not . . . interfere with the police
power of the States, in granting ferry licenses”); Conway v. Taylor’s, 66 U.S. 603, 635 (1861) (noting that
“[since] before the Constitution had its birth, the
States have exercised the power to establish and regulate ferries,” not Congress, and that “the authority [to
do so] lies within the scope of ‘that immense mass’ of
undelegated powers which ‘are reserved to the States
respectively[ ]’ ”).
In light of the foregoing, a reasonable interpretation of the right to “use the navigable waters of the
United States,” and the one we adopt, is that it is a
right to navigate the navigable waters of the United
States. Here, it is clear that the Courtneys wish to do
more than simply navigate the waters of Lake Chelan.
Indeed, they are not restrained from doing so in a general sense. Rather, they claim the right to utilize those
waters for a very specific professional venture. While
navigation of Lake Chelan is a necessary component of
the Courtneys’ proposed activity, it is neither sufficient
to achieve their purpose nor the cause of their dissatisfaction. The Supreme Court in the Slaughter-House
Cases declined to define the plaintiffs’ asserted rights
broadly, finding that the statute did not prohibit the
butchering of animals in general because it was specifically “the slaughter-house privilege, which [was]
mainly relied on to justify the charges of gross injustice

App. 113
to the public, and invasion of private right.” SlaughterHouse Cases, 83 U.S. at 61. Similarly here, the district
court correctly identified the actual privilege at stake
as a ferry operation privilege, not a broad navigation
privilege. Were navigation all the Courtneys wished to
do, they would not need the WUTC’s permission and
this dispute would never have arisen. We find it exceedingly unlikely that the Supreme Court in the
Slaughter-House Cases contemplated operation of a
public ferry as part of the right “to use the navigable
waters of the United States,” so as to divest the states
of their historic authority to regulate public transportation on intrastate navigable waterways.
Indeed, the Slaughter-House decision, itself, contains suggestions that contradict such an understanding. In discussing the nature of the states’ police power,
the majority noted that, with respect to “laws for regulating the internal commerce of a State, and those
which respect . . . ferries . . . [, n]o direct general power
. . . is granted to Congress; and consequently they remain subject to State legislation.” Id. at 63 (quoting
Gibbons v. Ogden, 22 U.S. (Wheaton) 1, 203 (1824)) (internal quotation marks omitted). Moreover, while the
dissenting minority disagreed with the majority’s acceptance of a slaughter-house monopoly, it seemed to
approve of ferry franchises, stating that
[i]t is the duty of the government to provide
suitable roads, bridges, and ferries for the convenience of the public, and if it chooses to devolve this duty to any extent . . . upon
particular individuals or corporations, it may

App. 114
of course stipulate for such exclusive privileges . . . as it may deem proper, without encroaching upon the freedom or the just rights
of others.
Id. at 88 (Field, J., dissenting).
Further, the driving force behind this litigation is
the Courtneys’ desire to operate a particular business
using Lake Chelan’s navigable waters—an activity
driven by economic concerns. We have narrowly construed the rights incident to United States citizenship
enunciated in the Slaughter-House Cases, particularly
with respect to regulation of intrastate economic activities. See, e.g., Merrifield v. Lockyer, 547 F.3d 978, 983–
84 (9th Cir. 2008).5
C
Finally, although the Slaughter-House Court
acknowledged that “the right to engage in one’s
5

In Merrifield, we upheld a pest-control licensing requirement under the Privileges or Immunities Clause, despite the appellant’s contention that the license requirement “infringe[d] on
his right to practice his chosen profession.” 547 F.3d at 983. We
noted that the Supreme Court’s decision in Saenz v. Roe, 526 U.S.
489 (1999), “represents the Court’s only decision qualifying the
bar on Privileges or Immunities claims against ‘the power of the
State governments over the rights of [their] own citizens,’ ” id. at
983 (quoting Slaughter-House Cases, 83 U.S. at 77); that “[Saenz]
was limited to the right to travel[,]” id. at 984; and that “[t]he
Court has not found other economic rights protected by [the Privileges or Immunities C]lause,” id. We have made clear that this
“limitation on the Privileges or Immunities Clause” remains in
effect. See id.

App. 115
profession of choice” was a “fundamental” privilege belonging to “citizens of all free governments,” it “made it
very clear” that such a right “[was] not protected by the
Privileges or Immunities Clause if [it was] not of a ‘federal’ character.” Id. at 983 (emphasis added) (citations
omitted). Operation of a ferry service is not inherently
“federal” in character. To the contrary, the regulation of
ferry operation has traditionally been the prerogative
of state and local authorities. See, e.g., Gloucester Ferry
Co. v. Pennsylvania, 114 U.S. 196, 215–17 (1885) (recognizing that “[t]he power of the states to regulate
matters of internal police includes the establishment
of ferries” so long as regulations do not burden interstate commerce); Can. Pac. Ry. Co. v. United States, 73
F.2d 831, 833 (9th Cir. 1934) (explaining that “[a]t common law a franchise was necessary to the creation of a
ferry and . . . an integral part of the definition”); Kitsap
Cnty. Transp. Co. v. Manitou Beach-Agate Pass Ferry
Ass’n, 30 P.2d 233, 234–35, 237 (1934) (finding a state
PCN requirement to be within the state’s police power
in order to serve “the best interests of the traveling
public at large”).
In this case, the state of Washington has a vital
interest in regulating traffic on its navigable waterways. As the WUTC noted in its Ferry Report, “[t]he
combination of statutory protection from competition,
on the one hand, and stringent regulation of rates and
terms of service, on the other, has historically been
adopted for industries believed to have characteristics
of a ‘natural monopoly.’ ” Ferry Report 11 (citing
Charles F. Phillips, Jr., The Regulation of Public

App. 116
Utilities 49–73 (3d ed. 1993)). The PCN requirement
creates precisely the kind of ferry franchise that has
existed with approval since before the SlaughterHouse Cases were decided. See, e.g., Conway, 66 U.S. at
633–35.
The Courtneys contend that ferry operation on
Lake Chelan is “nationalized” because of the “national
character of the forum in which such a ferry operates,”
and that Lake Chelan is “uniquely federal” due to its
incorporation into “the federal Lake Chelan National
Recreation Area.” However, the Courtneys provide no
actual authority for the proposition that the Lake Chelan National Recreation Area renders unconstitutional
state regulation of ferry service on wholly intrastate
waterways. The Lake Chelan National Recreation
Area does not appear to contemplate preemption of
state ferry regulations, and the federal government
has in the past refrained from exercising exclusive jurisdiction over its National Recreation Areas. See 16
U.S.C. § 90a-1; see also Silas Mason Co. v. Tax Comm’n
of Wash., 302 U.S. 186, 244 (1937) (finding that “the evidence is clear that the Federal Government contemplated the continued existence of state jurisdiction
consistent with federal functions” with respect to the
federal Grand Coulee Dam site in Lake Roosevelt); 36
C.F.R. § 7.55 (setting forth regulations for Lake Roosevelt as a National Recreation Area).

App. 117
D
At the end of the day, the state legislation the
Courtneys challenge is narrow in scope, merely restricting the operation of commercial public ferries to
those who obtain a PCN certificate. The PCN requirement does not constrain the Courtneys from traversing
Lake Chelan in a private boat for private purposes. See
Wash. Rev. Code § 81.84.010(1) (restricting ferry operation “for the public use for hire”). Nor does it affect
their ability to operate a commercial freight transportation service. See id. For that matter, the Courtneys
are free to operate a commercial ferry service so long
as they apply for and obtain a PCN certificate. See id.
Although the Courtneys have apparently found the
PCN requirement to be a difficult hurdle to surmount,
“the hardship, impolicy, or injustice of state laws is not
necessarily an objection to their constitutional validity.” Mo. Pac. Ry. Co. v. Humes, 115 U.S. 512, 520–21
(1885). Because we hold that the Privileges or Immunities Clause of the Fourteenth Amendment does not
protect a right to operate a public ferry on Lake Chelan, we affirm the district court’s dismissal of the
Courtneys’ first claim for relief.
III
The district court declined to express an opinion
as to whether the right to use the navigable waters of
the United States covers the use of such waters for private boat services for patrons of specific businesses or
groups of businesses. Instead, it found that the

App. 118
Courtneys lacked standing, the claim was unripe, and
the issue was appropriate for abstention under the doctrine enunciated in Railroad Commission of Texas v.
Pullman Co., 312 U.S. 496 (1941). We disagree as to
standing6 and need not reach the ripeness issue because we find that the district court did not abuse its
discretion in abstaining from considering the claim under the Pullman doctrine. However, we conclude that
the district court should have retained jurisdiction
over the Courtneys’ case and vacate and remand with
instructions that it do so.
The Pullman doctrine is “based on the avoidance
of needless friction between federal pronouncements
and state policies.” Reetz v. Bozanich, 397 U.S. 82, 87
(1970) (internal quotation marks omitted). It vests federal courts with discretion7 to abstain from adjudicating disputes that hinge on significant and unsettled
questions of state law. See Pullman, 312 U.S. at 499–
500.

6

Although a close question, the threat of a classification proceeding, Washington Supreme Court precedent, and the economic
loss the Courtneys have already suffered from having to refrain
from purchasing a vessel for which they had negotiated favorable
terms make their fear of enforcement and injury sufficiently actual to confer standing here.
7
The district court incorrectly stated that a federal court
“must abstain” from considering a federal constitutional question
if the Pullman requirements are satisfied. To the contrary, its ultimate decision to abstain is discretionary under such circumstances. See Potrero Hills Landfill, Inc. v. Cnty. of Solano, 657
F.3d 876, 889 (9th Cir. 2011) (“Pullman is a discretionary doctrine
that flows from the court’s equity powers.”).

App. 119
Abstention under Pullman is an appropriate
course where
(1) the case touches on a sensitive area of social policy upon which the federal courts
ought not enter unless no alternative to its adjudication is open, (2) constitutional adjudication plainly can be avoided if a definite ruling
on the state issue would terminate the controversy, and (3) the possible determinative issue
of state law is uncertain.
Confederated Salish v. Simonich, 29 F.3d 1398, 1407
(9th Cir. 1994). The court “has no discretion to abstain
in cases that do not meet the requirements.” Fireman’s
Fund Ins. Co. v. City of Lodi, 302 F.3d 928, 939 (9th Cir.
2002).
A
The array of cases dealing with waterways and
waterbased transportation in Washington state suggests that regulation of water traffic is indeed a sensitive issue of social policy in Washington. See Rancho
Palos Verdes Corp. v. City of Laguna Beach, 547 F.2d
1092, 1094 (9th Cir. 1976) (pointing to the “array of
state constitutional provisions and statutes” involving
land use planning as evidence that it is “a sensitive
area of social policy” in California). Given the ubiquity
of waterways in Washington, and the unique importance of water navigation in the Lake Chelan area
specifically, it follows that regulation of water routes
and resources in the area would be of great concern to
the state. See Reetz, 397 U.S. at 87 (noting that “fish

App. 120
resources” was “an asset unique in its abundance in
Alaska,” and that “the management [of fish resources
was] a matter of great state concern”).
B
In addition, “[a] state court decision . . . could conceivably avoid any decision under the Fourteenth
Amendment and would avoid any possible irritant in
the federal-state relationship.” Id. at 86–87. If, for example, the WUTC issues a declaratory order that the
“charter” boat service proposed by the Courtneys is not
“for the public use for hire,” within the meaning of
Washington Revised Code § 81.84.010(1), the PCN requirement would not apply to them and the claim
would be rendered moot. The Courtneys have challenged the state statutory scheme as applied to their
proposed transportation services. A decision by the
WUTC that the Courtneys do not need a PCN certificate to operate their proposed services would obviate
the need for this constitutional challenge.
Moreover, even if the WUTC concludes that the
PCN requirement applies to the Courtneys’ proposed
services, a contrary ruling by the Washington Supreme
Court could also potentially render their constitutional
challenge unnecessary. See England v. La. State Bd. of
Med. Examiners, 375 U.S. 411, 424 (1964) (Douglas, J.,
concurring) (“Where state administrative action is
challenged, a federal court will normally not intervene
where there is an adequate state court review which is
protective of any federal constitutional claim.”).

App. 121
C
Finally, as discussed above, it is not clear whether
the PCN requirement applies to the private boat transportation services the Courtneys wish to provide. An
issue of state law is “uncertain” if “a federal court cannot predict with any confidence how the state’s highest
court would decide an issue of state law.” Pearl Inv. Co.
v. City and Cnty. of S.F., 774 F.2d 1460, 1465 (9th Cir.
1985).
The PCN requirement in Washington Revised
Code § 81.84.010 only applies to vessels or ferries “for
the public use for hire.” That phrase has yet to be applied in a formal agency opinion or by any state court
to the services the Courtneys propose. The WUTC’s
2010 Ferry Report indicated that it “might reasonably
conclude that a boat service offered on Lake Chelan
(and elsewhere) in conjunction with lodging at a particular hotel or resort, and which is not otherwise open
to the public, does not require a certificate under
[Washington Revised Code § 81.84.010],” but also that
“the commission could . . . decide not to adopt that interpretation.” Ferry Report 15. Notwithstanding allegations in the Courtneys’ complaint that suggest the
WUTC would hold them subject to the PCN requirement, it remains unclear how the Washington Supreme Court would interpret the statutory provision at
issue with respect to the Courtneys’ proposed services.8

8

The Washington Supreme Court’s decision in Kitsap dealt
with a private club that initiated a boat transportation service
reserved for its members and their guests only. 30 P.2d at 235.

App. 122
D
In light of the foregoing, the district court did not
abuse its discretion in abstaining from adjudication of
the Courtneys’ second claim for relief. Nevertheless,
the district court should have retained jurisdiction
over the case pending resolution of the state law issues,
rather than dismissing the case without prejudice. We
have generally considered dismissal inappropriate following Pullman abstention. See Fireman’s Fund Ins.
Co., 302 F.3d at 940 (“If a court invokes Pullman abstention, it should stay the federal constitutional question until the matter has been sent to state court for a
determination of the uncertain state law issue.” (internal quotation marks and citation omitted)); Columbia
Basin Apt. Ass’n v. City of Pasco, 268 F.3d 791, 802 (9th
Cir. 2001) (same); Int’l Bhd. of Elec. Workers, Loc. Union
No. 1245 v. Pub. Serv. Comm’n of Nev., 614 F.2d 206,
The court concluded that the service was still considered a “common carrier” and was subject to the PCN requirement. Id. In doing so, the court emphasized that the “club boat” was, in practice,
essentially a competing public ferry service. Id. at 236. Kitsap is
the only Washington case to have disapproved of a “private charter” service, and the WUTC recognized that “a boat service offered
. . . in conjunction with lodging at a particular hotel or resort, and
which is not otherwise open to the public, [might] not require a
certificate.” Ferry Report 15. The “shuttle” and “charter” services
proposed by the Courtneys would be appurtenant to their Stehekin-based businesses and presumably be operated solely for patrons of these businesses. However, the Courtneys’ complaint
does not provide specific details regarding their proposed boat services, and it is therefore difficult to compare those services to the
“club boat” scenario. Thus, the Kitsap case does not help us predict with any confidence how the Washington Supreme Court
would rule on this issue.

App. 123
213 (9th Cir. 1980) (finding dismissal following Pullman abstention improper pending Nevada courts’ resolution of state issues); Santa Fe Land Improvement
Co. v. City of Chula Vista, 596 F.2d 838, 841 (9th Cir.
1979) (“If the court abstains under Pullman, retention
of jurisdiction, and not dismissal of the action, is the
proper course.”).
The Supreme Court has found dismissal without
prejudice following Pullman abstention to be appropriate where Texas law precluded a grant of state declaratory relief if a federal court retained jurisdiction. See
Harris Cnty. Comm’rs Ct. v. Moore, 420 U.S. 77, 88 n.14
(1975). The same does not appear to be true, however,
in Washington. See Rancho Palos Verdes Corp., 547
F.2d at 1096 (distinguishing California law from Texas
law and the Harris decision in holding that the district
court should have retained jurisdiction following Pullman abstention); Brown v. Vail, 623 F. Supp. 2d 1241,
1247 (W.D. Wash. 2009) (retaining jurisdiction following exercise of Pullman abstention, citing, inter alia,
Columbia Basin, 268 F.3d at 802).
Despite its proper invocation of the Pullman doctrine, the district court erred in dismissing the Courtneys’ second claim. Therefore, we vacate and remand
the Courtneys’ second claim with directions that the
district court enter an order retaining jurisdiction over
the constitutional claim. See Isthmus Landowners
Ass’n, Inc. v. California, 601 F.2d 1087, 1090–91 (9th
Cir. 1979) (finding failure to retain jurisdiction after
Pullman abstention to be reversible error).

App. 124
CONCLUSION
The district court’s dismissal of the Courtneys’
first claim for relief is AFFIRMED. The dismissal of
their second claim for relief is AFFIRMED in part,
VACATED in part, and REMANDED with instructions that the district court retain jurisdiction over the
constitutional question.
The parties shall bear their own costs of appeal.

App. 125
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WASHINGTON
JAMES COURTNEY and
CLIFFORD COURTNEY,
Plaintiffs,

NO: 11-CV-0401-TOR
ORDER GRANTING
MOTION TO DISMISS
[Filed Apr. 17, 2012]

v.
JEFFREY GOLTZ, et al.,
Defendants.

BEFORE THE COURT is Defendants’ motion to
dismiss for failure to state a claim (ECF No. 7). The
Court heard oral argument on the motion on April 12,
2012. Michael E. Bindas and Jeanette Petersen appeared on behalf of the Plaintiffs, James Courtney and
Clifford Courtney. Assistant Attorney General Fronda
Woods appeared on behalf of the Defendants, Jeffrey
Goltz, Patrick Oshie, Philip Jones, and David Tanner.
The Court has reviewed the motions, the responses,
the record and files herein and is fully informed.
BACKGROUND
This lawsuit is a challenge to certain Washington
statutes and administrative regulations that require
an operator of a commercial ferry to obtain a certificate
of “public convenience and necessity” from the Washington Utilities and Transportation Commission
(“WUTC”) before commencing operations. Plaintiffs

App. 126
allege that these statutes and regulations, as applied
to their proposed ferry services on Lake Chelan, violate
their right “to use the navigable waters of the United
States” under the Privileges or Immunities Clause of
the Fourteenth Amendment. Defendants, all members
of the WUTC, have moved to dismiss the Complaint for
failure to state a claim on the ground that Plaintiffs do
not have a Fourteenth Amendment right to operate a
commercial ferry on Lake Chelan.
FACTS
The following facts are drawn from Plaintiff ’s
Complaint and are accepted as true for purposes of this
motion. Bell Atlantic Corp. v. Twombly, 550 U.S. 544,
556 (2007). Plaintiffs James Courtney and Clifford
Courtney (“the Courtneys”) live in Stehekin, Washington. Stehekin is a small, unincorporated community of
approximately 75 residents located at the northwestern-most tip of Lake Chelan. Stehekin is a very isolated community: the only means of accessing the town
are by boat, seaplane, or on foot. Most residents and
visitors reach Stehekin via a ferry operated by Lake
Chelan Boat Company. At present, this is the only commercial ferry operating on the lake.
The Courtneys would like to establish a competing
ferry service on Lake Chelan. They believe that a competing service is needed for two main reasons. First,
they believe that a second ferry, based in Stehekin,
would better serve the needs of Stehekin residents

App. 127
than the existing ferry based in Chelan.1 Second, they
believe that a second ferry would allow more tourists
and visitors to reach Stehekin, thereby increasing patronage of Stehekin businesses—many of which are
owned by the Courtneys. To date, however, the Courtneys have been unable to obtain the requisite certificate of “public convenience and necessity” from the
WUTC or otherwise obtain permission to operate a
ferry on Lake Chelan.
The Courtneys’ efforts to establish a competing
ferry service have taken several forms. First, in 1997,
James Courtney submitted a formal application to the
WUTC for a certificate of “public convenience and necessity” pursuant to RCW 81.84.010 and 020. The
WUTC’s evaluation of this application culminated in a
two-day evidentiary hearing at which the WUTC took
testimony from James and others about (1) the need
for an additional ferry; and (2) the financial viability of
the proposed service.2 The WUTC ultimately denied
James’s application, finding that the proposed service
1

The city of Chelan is located at the southeastern-most tip
of Lake Chelan. The distance between Chelan and Stehekin is
approximately fifty-five (55) miles by boat.
2
Before issuing a certificate of “public convenience and necessity,” the WUTC is required to determine that an applicant
“has the financial resources to operate the proposed service for at
least twelve months” and to evaluate “[r]idership and revenue
forecasts; the cost of service for the proposed operation; an estimate of the cost of the assets to be used in providing the service;
a statement of the total assets on hand of the applicant that will
be expended on the proposed operation; and a statement of prior
experience, if any, in such field by the applicant.” RCW
81.84.020(2).

App. 128
was not required by “the public convenience and necessity,” and that, in any event, James lacked the financial
resources to sustain the proposed service for twelve
months. The WUTC further concluded that James had
failed to carry his statutory burden of establishing that
the incumbent carrier “ha[d] failed or refused to furnish reasonable and adequate service.” See RCW
81.84.020(1).
Second, beginning in 2006, James attempted to establish an “on-call boat transportation service” based
in Stehekin. Because James intended to use docks
owned by the United States Forest Service in conjunction with this service, he applied to the Forest Service
for a “special use permit.” The Forest Service subsequently contacted the WUTC to verify that James’s
proposed use of its docks would comply with state law.
In October of 2007, WUTC staff advised the Forest Service that the proposed service was exempt from the
statutory “public convenience and necessity” requirement. In March of 2008, however, WUTC staff reversed
course and advised James directly that he would need
to obtain a certificate before commencing his on-call
service.
Four months later, in July of 2008, WUTC staff reversed course once again and advised James that the
on-call service would be exempt from the certificate requirement. The Forest Service, recognizing the apparent confusion among the WUTC staff, subsequently
requested an “advisory opinion letter” on the issue
from Defendant David Danner in August of 2009. For

App. 129
reasons that are unclear from the existing record, Defendant Danner declined to respond.
Also in 2008, Clifford Courtney contacted the
WUTC and proposed two alternative boat transportation services. The first proposal was a “charter” service
whereby Clifford would hire a private boat to transport
patrons of his lodging and river rafting businesses between Chelan and Stehekin. The second proposal was
a service whereby Clifford would “shuttle” his customers between Chelan and Stehekin in his own private
boat.
In September of 2008, Clifford sent a letter to Defendant Danner seeking guidance about whether either proposed service would require a certificate of
“public convenience and necessity.” Defendant Danner
responded that, in his opinion, both services would require a formal certificate. Specifically, Defendant Danner opined that even private boat transportation,
offered exclusively to paying customers of Clifford’s
lodging and river rafting businesses, would be a service
“for the public use for hire” for which a formal certificate was required pursuant to RCW 81.84.010. Defendant Danner did, however, inform Clifford that his
opinion was merely advisory in nature and that
Clifford was free to seek a formal ruling on the issue
from the full Commission.
Frustrated by the WUTC’s responses to their formal application and subsequent proposals, the Courtneys contacted the Governor of the State of
Washington and several state legislators in February

App. 130
of 2009. The Courtneys explained the perceived need
for a competing ferry service on Lake Chelan and
urged their legislators to relax the ferry operator certification requirement. In response, the State Legislature directed the WUTC to study the appropriateness
of statutes and regulations governing commercial ferry
operations on Lake Chelan. Pursuant to this mandate,
the WUTC studied the issue and delivered a formal report to the State Legislature in January of 2010. See
Washington Utilities and Transportation Commission,
Appropriateness of Rate and Service Regulation of
Commercial Ferries Operating on Lake Chelan: Report
to the Legislature Pursuant to ESB 5894, January 14,
2010 (hereinafter “Ferry Report”).3
In this report, the WUTC concluded, inter alia,
that the existing ferry operator was providing satisfactory service and that no modification of the existing
regulations was therefore necessary. The WUTC did,
however, discuss the potential for “limited competition”
by private carriers within the confines of the existing
statutory and regulatory framework:
There are three ways for the Commission to
allow some limited competition with an incumbent provider’s service: (1) by defining an
incumbent’s protected geographic territory in
a narrow fashion, (2) by concluding that the
3

Available at: http://www.wutc.wa.gov/webdocs.nsf/d94ad
fab95672fd98825650200787e67/bl8a8709b0fbaba2882576bl0079
9b46/$FILE/Appropriateness%20of%20Rate%20&%20Service%20
Regulation%20of%20Commercial%20Ferries%20Operating%20on
%20Lake%20Chelan_2010.pdf

App. 131
incumbent has failed to meet a public need
that the applicant proposes to meet, or (3) by
declining to require a certificate for certain
types of boat transportation services that are
arguably private rather than for public use.
Ferry Report at 12. Although the WUTC believed that
it was “unlikely that . . . any of these theories could be
relied upon to authorize competing services on Lake
Chelan,” it nevertheless concluded that,
[T]here may be flexibility within the law for
the Commission to take an expansive interpretation of the private carrier exemption
from commercial ferry regulation. For example, the Commission might reasonably conclude that a boat service offered on Lake
Chelan (and elsewhere) in conjunction with
lodging at a particular hotel or resort, and
which is not otherwise open to the public, does
not require a certificate under RCW
81.84.[010].
Ferry Report at 15.
On October 19, 2011, the Courtneys filed this lawsuit challenging Washington’s regulation of commercial ferry activity under the Fourteenth Amendment to
the United States Constitution. The Courtneys’ Complaint alleges that the applicable statutes and administrative regulations, as applied to their attempts to
establish a competing ferry service on Lake Chelan, violate their right to “use the navigable waters of the
United States” under the Privileges or Immunities
Clause. The Courtneys have specifically limited their

App. 132
causes of action to their rights under the Fourteenth
Amendment’s Privileges or Immunities Clause and
have expressly disclaimed reliance upon the Commerce Clause or any other constitutional provision. Accordingly, the court will limit its analysis to whether
the Courtneys have stated a claim for relief under 42
U.S.C. § 1983 or 28 U.S.C. § 2201 et seq. for violations
of a right guaranteed by the Privileges or Immunities
Clause of the Fourteenth Amendment.
DISCUSSION
A motion to dismiss pursuant to Federal Rule of
Civil Procedure 12(b)(6) “tests the legal sufficiency of a
[plaintiff ’s] claim.” Navarro v. Block, 250 F.3d 729, 732
(9th Cir. 2001). To survive such a motion, a plaintiff
must allege facts which, when taken as true, “state a
claim to relief that is plausible on its face.” Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009) (quotation and citation
omitted). In order for a plaintiff asserting a cause of
action under 42 U.S.C. § 1983 to satisfy this standard,
he or she must allege facts which, if true, would constitute a violation of a right guaranteed by the United
States Constitution. Balistreri v. Pacifica Police Dept.,
901 F.2d 696, 699 (9th Cir. 1990). Similarly, a plaintiff
seeking declaratory relief under 28 U.S.C. § 2201 must
allege facts which, if true, would violate federal law.
See Skelly Oil Co. v. Phillips Petroleum Co., 339 U.S.
667, 672 (1950) (holding that Declaratory Judgment
Act did not expand subject-matter jurisdiction of federal courts). As discussed below, Plaintiffs’ Complaint
fails to satisfy these standards.

App. 133
A. The “Right to Use the Navigable Waters of the
United States”
The Courtneys have asserted two related causes of
action. First, they allege that the State of Washington’s
ferry licensing laws infringe upon their right to provide
a commercial ferry service open to the general public
on Lake Chelan. Second, they claim that these same
laws infringe upon their right to provide a private ferry
service for patrons of their Stehekin-based businesses.
Plaintiffs contend that their right to provide these services is guaranteed by the Fourteenth Amendment’s
Privileges or Immunities Clause, which provides that
“No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States.” U.S. Const. amend. XIV. § 1.
In support of their claims, the Courtneys note that
the Supreme Court has specifically delineated “[t]he
right to use the navigable waters of the United States”
as one of the “privileges or immunities” guaranteed to
citizens of the United States under the Fourteenth
Amendment. See Slaughter-House Cases, 83 U.S. (16
Wall.) 36, 79-80 (1872). Defendants apparently do not
dispute that Slaughter-House established a Fourteenth Amendment right “to use the navigable waters
of the United States.” Defendants argue, however, that
this right does not extend to operating a commercial
ferry service because regulation of such services has
traditionally been reserved exclusively to the individual states.

App. 134
At the outset, it is important to note that no federal court has ever directly examined the “right to use
the navigable waters of the United States” referenced
by the Supreme Court in Slaughter-House. Given the
absence of applicable precedent, this Court must attempt to define the “right to use the navigable waters
of the United States” before determining whether, on
the facts alleged in the Complaint, the right could have
been violated. The logical starting point for this analysis is the Slaughter-House decision itself.
In Slaughter-House, the Supreme Court was asked
to decide whether a Louisiana statute which granted
to a single corporation the exclusive right to operate a
centralized slaughterhouse—to which all merchants
were required to bring their animals for slaughter—
violated the Thirteenth or Fourteenth Amendments.
83 U.S. (16 Wall.) at 66-67. Before embarking on that
task, Justice Miller, writing for a 5-4 majority, emphasized that the Court’s consideration of the newlyadopted Thirteenth and Fourteenth Amendments
must be informed by the history and purpose of their
adoption. Id. at 67-68, 71-72. According to Justice Miller, “the one pervading purpose” of these amendments
at the time of their adoption was to ensure “the freedom of the slave race, the security and firm establishment of that freedom, and the protection of the newlymade freeman and citizen from the oppressions of
those who had formerly exercised unlimited dominion
over him.” Id. at 71.
With the history and purpose of the amendments
thus established, the Court proceeded to consider

App. 135
whether the Louisiana statute violated the Privileges
or Immunities Clause of the Fourteenth Amendment.
At the outset, the Court drew a crucial distinction between rights and privileges created by state citizenship
and rights and privileges created by United States citizenship. See id. at 72-77. Specifically, the Court noted
that the Fourteenth Amendment protects only “privileges or immunities of citizens of the United States”
and that these rights are separate from the “Privileges
and Immunities” guaranteed to state citizens referenced in Article IV. Id. at 78.
According to the Slaughter-House majority, the
“privileges or immunities” referenced in the Fourteenth Amendment are a narrow category of rights
“which ow[e] their existence to the Federal government, its National character, its Constitution, or its
laws.” Id. at 79. The “Privileges and Immunities” referenced in Article IV. by contrast, are a broad category of
“fundamental” rights conferred by state citizenship,
such as “protection by the government . . . the right to
acquire and possess property of every kind, and [the
right] to pursue and obtain happiness and safety.” Id.
at 76, (emphasis omitted). Notably, the Court further
emphasized that the latter category of rights “embraces nearly every civil right for the establishment
and protection of which organized government is instituted.” Id. (citing Ward v. Maryland, 79 U.S. (12 Wall.)
418, 430 (1870)).
After drawing this crucial distinction between
rights conferred by state citizenship and rights conferred by United States citizenship, the Court

App. 136
concluded that the right asserted by the petitioners—
i.e., the right to operate competing slaughterhouse facilities4—was not a privilege of United States citizenship. Id. at 79. Rather, the Court concluded that this
was an economic right conferred by state citizenship—
a right that must yield to the lawful exercise of the
state’s “police power.” Id. at 62, 78. Accordingly, the
Court held that the Louisiana statute did not implicate
the “privileges or immunities” protected by the Fourteenth Amendment. Id. at 80.
Before concluding its analysis of the “privileges or
immunities” issue, however, the Slaughter-House majority took an unusual step: it enumerated certain
rights which, though not implicated by the challenged
statute, might nevertheless be protected under the
Fourteenth Amendment.
Having shown that the privileges and immunities relied [upon by the petitioners] are those
which belong to the citizens of the States as
4

The majority carefully noted that the Louisiana statute did
not “deprive[ ] a large and meritorious class of citizens . . . of the
right to exercise their trade,” but merely required all butchers “to
slaughter at a specified place and to pay a reasonable compensation for the use of the accommodation furnished to him at that
place.” 83 U.S. (16 Wall.) at 60-61. Accordingly, the Court framed
the right at issue not as the right to butcher animals in general,
but rather the right of to operate competing slaughterhouse facilities. Id. at 61 (“[I]t is not true that [the statute] deprives the
butchers of the right to exercise their trade, or imposes upon them
any restriction incompatible with its successful pursuit . . . [i]t is,
however, the slaughter-house privilege, which is mainly relied on
to justify the charges of gross injustice to the public, and invasion
of private right.”) (emphasis added).

App. 137
such, and that they are left to the State governments for security and protection, and not
by [the Fourteenth Amendment] placed under
the care of the Federal government, we may
hold ourselves excused from defining the privileges and immunities of citizens of the
United States which no State can abridge, until some case involving those privileges may
make it necessary to do so.
But lest it should be said that no such privileges and immunities are to be found . . . we
venture to suggest some which own their existence to the Federal government, its National character, its Constitution, or its laws.
Id. at 78-79. The Court then proceeded to list several
examples of rights that could potentially be guaranteed by the Fourteenth Amendment. One such example
was “[t]he right to use the navigable waters of the
United States, however they may penetrate the territory of the several States.” Id. at 79.
B. Plaintiffs’ First Cause of Action: Operation of a
Commercial Ferry Service Open to the Public
Given the limited holding of the Slaughter-House
case, this Court cannot definitively conclude that the
Fourteenth Amendment does in fact protect “the right
to use the navigable waters of the United States.” Because the Slaughter-House majority merely “venture[d] to suggest” a number of rights that could be
protected under the Fourteenth Amendment—ostensibly to prevent the Privileges or Immunities Clause

App. 138
from becoming a legal nullity—there is reason to question whether “the right to use the navigable waters of
the United States” is truly a recognized Fourteenth
Amendment right. The fact that no federal court has
ever directly examined the “right” further reinforces
this uncertainty.
Nevertheless, even if the right does in fact exist,
the court Cannot conclude that the right extends to operating a commercial ferry open to the public on Lake
Chelan. At the Courtneys’ urging, the Court has thoroughly reviewed the history and purpose of the Fourteenth Amendment’s Privileges or Immunities Clause.
The Courtneys are correct that the overarching purpose of the clause at the time of the Fourteenth Amendment’s adoption was the protection of the rights of
newly-freed slaves following the Civil War. See Slaughter-House, 83 U.S. (16 Wall.) at 71 (noting that the “one
pervading purpose” of the Thirteenth, Fourteenth and
Fifteenth Amendments was “the protection of the
newly-made freeman and citizen from the oppressions
of those who had formerly exercised unlimited dominion over him”).
There is less support, however, for the Courtneys’
assertions that the Privileges or Immunities Clause
was designed to protect quintessentially economic
rights. While it is certainly likely that the oppression
of former slaves in the wake of the Civil War resulted
in adverse economic consequences, there is little to
suggest that Congress viewed the Privileges or Immunities Clause as the primary vehicle through which
former slaves would achieve economic equality. Indeed,

App. 139
the Courtneys’ focus on the economic underpinnings of
the clause appears to give short shrift to the “one pervading purpose” of the Thirteenth, Fourteenth and Fifteenth Amendments: to eliminate all forms of
institutional oppression of former slaves. Id. at 71.
Moreover, the Courtneys’ assertion that they have
a Fourteenth Amendment right to operate a ferry business on Lake Chelan is inconsistent with the SlaughterHouse decision itself. Like the right to operate competing slaughterhouse facilities at issue in SlaughterHouse, the right to operate a competing commercial
ferry service on Lake Chelan appears to derive from
state citizenship rather than United States citizenship.
Cf. Saenz v. Roe, 526 U.S. 489, 502-03 (1999) (holding
that Fourteenth Amendment Privileges or Immunities
Clause protects the right to travel between states).
Notwithstanding Slaughter-House’s suggestion that
the right to “use” the navigable waters of the United
States derives from United States citizenship, the
holding of the case counsels that using such waters in
the manner the Courtneys have proposed—i.e., to operate a competing commercial ferry business—is one of
the “fundamental” rights conferred by state citizenship. See id. at 76 (holding that “the right to acquire
and possess property of every kind” originates from
state citizenship and is therefore not protected under
the Privileges or Immunities Clause of the Fourteenth
Amendment)5; McDonald v. City of Chicago, ___ U.S.
5

The Court also notes that the Slaughter-House majority
tacitly approved of an exclusive ferry franchise by declining to address a portion of the Louisiana statute which granted the

App. 140
___, 130 S. Ct. 3020, 3030-31 (2010) (declining to revisit Slaughter-House’s narrow interpretation of the
rights protected under the Privileges or Immunities
Clause). Accordingly, the Court finds that the Courtneys do not have a Fourteenth Amendment right to operate a commercial ferry service open to the public on
Lake Chelan.6
C. Plaintiffs’ Second Cause of Action: Operation of a
Private Ferry Service to Patrons of StehekinBased Businesses
1. Standing
Article III of the United States Constitution limits
the jurisdiction of federal courts to cases or controversies between litigants with adverse interests. U.S.
Const. art. III, § 2, cl. 1. The overarching purpose of this
provision is to prevent federal courts from rendering
slaughterhouse operator an exclusive right to run ferries on the
Mississippi River between its several buildings on both sides of
the river. See 83 U.S. (16 Wall.) at 43. The minority approved of
an exclusive ferry franchise more explicitly: “It is the duty of the
government to provide suitable roads, bridges, and ferries for the
convenience of the public, and if it chooses to devolve this duty to
any extent, or in any locality, upon particular individuals or corporations, it may of course stipulate for such exclusive privileges
connected with the franchise as it may deem proper, without encroaching upon the freedom or the just rights of others.” Id. at 88
(Field, J., dissenting). However, the court expresses no opinion as
to the legality of an exclusive ferry franchise at this time.
6
The Court expresses no opinion about whether the right to
use the navigable waters of the United States extends to “using”
such waters for private transportation services incidental to a
land-based business.

App. 141
advisory opinions in the absence of an actual dispute.
Flast v. Cohen, 392 U.S. 83, 96-97 (1968). Consistent
with this mandate, litigants in federal court must establish the existence of a legal injury that is both “concrete and particularized [and] actual or imminent.”
Lujan v. Defenders of Wildlife, 504 U.S. 555, 560 (1992)
(plurality opinion) (internal quotation marks and citations omitted). To satisfy this requirement in an action
for declaratory and injunctive relief, a litigant must allege facts which “show a very significant possibility of
future harm.” San Diego County Gun Rights Comm. v.
Reno, 98 F.3d 1121, 1126 (9th Cir. 1996). Accordingly,
“[t]he mere existence of a statute, which may or may
not ever be applied to plaintiffs, is not sufficient to create a case or controversy within the meaning of Article
III.” Stoianoff v. Montana, 695 F.2d 1214, 1223 (9th Cir.
1983).
Here, the Courtneys’ second claim does not present an actual case or controversy under Article III.
The Courtneys’ second claim is based on Clifford
Courtney’s proposal to the WUTC in 2008 for one of
two alternative boat transportation services. The first
proposal was a “charter” service whereby Clifford
would hire a private boat to transport patrons of his
lodging and river rafting businesses between Chelan
and Stehekin. The second proposal was a service
whereby Clifford would “shuttle” his customers (lodging and river rafting patrons) between Chelan and Stehekin in his own private boat.
As the Courtneys acknowledge in their complaint,
the WUTC has never definitively ruled that their

App. 142
proposed “private” ferry service would in fact require a
certificate of public convenience and necessity under
RCW 81.84.010. While the Court commends the Courtneys for their good-faith efforts to resolve this issue
with the WUTC over the past several years, it cannot
ignore the fact that (1) the WUTC has given directly
conflicting opinions about whether a certificate would
be required; and (2) neither the WUTC nor any other
state adjudicative body has ever officially ruled on the
matter. Accordingly, the Court finds that it lacks subject-matter jurisdiction to entertain the Courtneys’
second cause of action at this time. San Diego County
Gun Rights Comm., 98 F.3d at 1126; Stoianoff, 695 F.2d
at 1223.
2. Ripeness
Even if the Court had subject-matter jurisdiction,
however, it would nevertheless decline to consider the
Courtneys’ second claim on prudential ripeness
grounds.7 In light of the lingering uncertainty about
whether the Courtneys would be required to obtain a
7

During oral argument, counsel for the Plaintiffs correctly
noted that the Courtneys are not required to exhaust their administrative remedies before filing a § 1983 claim. Patsy v. Bd. of
Regents of Florida, 457 U.S. 496, 516, (1982). The lack of an exhaustion requirement, however, does not relieve the Courtneys of
their obligation to establish that their claim presents a ripe controversy. See McCabe v. Arave, 827 F.2d 634, 639 (9th Cir. 1987)
(“While there is no requirement that administrative remedies be
exhausted in cases brought under 42 U.S.C. § 1983, the claim
must be ripe, and not moot, to be reviewed properly.”) (internal
citations omitted).

App. 143
certificate of public convenience and necessity to operate a private ferry service, the court concludes that further consideration of the constitutionality of the
challenged statutes at this juncture would be premature. See Renne v. Geary, 501 U.S. 312, 323-24 (1991)
(postponing ruling on whether provision of the California constitution violated the First Amendment where
provision did not clearly apply to petitioners and
where “permitting the state courts further opportunity
to construe [the provision could] . . . materially alter
the question to be decided”) (internal quotation and citation omitted). This conclusion is further reinforced
by the WUTC’s most recent pronouncement that “there
may be flexibility within the law for the commission to
take an expansive interpretation of the private carrier
exemption from commercial ferry regulation.” See
Ferry Report at 15. In light of the WUTC’s apparent
willingness to consider an interpretation of the statute
that would not implicate the Fourteenth Amendment,
the court concludes that the Courtneys’ second claim is
unripe for present adjudication.8

8

The Court acknowledges that an as-applied challenge to
RCW 81.84.010—which the Courtneys have asserted in this
case—is more likely to present a ripe controversy than a facial
challenge. See, e.g., Brockett v. Spokane Arcades, Inc., 472 U.S.
491, 501-02 (1985) (articulating preference for deciding constitutional questions on the facts of a specific case rather than in the
abstract). Nevertheless, when a § 1983 plaintiff asserting an asapplied challenge fails to seek a conclusive determination as to
whether the challenged statute will in fact be applied in the manner asserted, a ripe controversy does not exist. See Shelter Creek
Dev. Corp. v. City of Oxnard, 838 F.2d 375, 379-80 (9th Cir. 1988)
(dismissing as unripe an as-applied constitutional challenge

App. 144
3. Abstention
Finally, even if the Courtneys’ second claim was
ripe for review, the Court would abstain from deciding
the constitutional question presented under the “abstention doctrine” set forth in Railroad Comm’n of
Texas v. Pullman Co., 312 U.S. 496 (1941). Under Pullman, a federal court must abstain from deciding a federal constitutional question when the resolution of
that question hinges on competing interpretations of a
state statute. Id. at 499-500. In such situations, the
“last word” on the meaning of the state statute belongs
to the state courts. Id. The reasons for this deference
are twofold. First, deferring to a state court on a question of state law prevents a federal court’s interpretation of a state statute from being “supplanted by a
controlling decision of [the] state court” at a later time.
Id. at 500. More importantly, however, this deference
embodies a “scrupulous regard for the rightful independence of the state governments.” Id. at 501.
As discussed above, Washington’s ferry certification requirement applies to “commercial ferr[ies] . . .
for the public use for hire.” RCW 81.84.010. Whether
this definition applies to the Courtneys’ proposed “private” ferry service remains an open question. If the
WUTC or the Washington State courts determine that
the proposed service does qualify as a “commercial
ferry . . . for the public use for hire,” then enforcement
under § 1983 where plaintiffs never formally applied for a special
use permit, and, consequently, the defendant city never rendered
a “final and authoritative determination as to how the [challenged
land use] ordinance applied” to the plaintiffs’ property).

App. 145
of the certificate requirement could potentially violate
the Courtneys’ Fourteenth Amendment rights. On the
other hand, if either entity determines that the proposed service does not qualify as a “commercial ferry
. . . for the public use for hire,” then the certificate requirement will not—indeed, cannot—be enforced
against the Courtneys. In the latter scenario, the
Courtneys’ constitutional challenge to the certificate
requirement is moot. Accordingly, the court concludes
that the Courtneys’ second claim must be dismissed
without prejudice to afford the WUTC or the Washington State courts an opportunity to resolve this unsettled question of state law. Pullman, 312 U.S. at 501.
ACCORDINGLY, IT IS HEREBY ORDERED:
Defendants’ motion to dismiss (ECF No. 7) is
GRANTED. Plaintiffs’ first cause of action is DISMISSED with prejudice. Plaintiffs’ second cause of action is DISMISSED without prejudice. The District
Court Executive is hereby directed to enter this Order
and furnish copies to counsel.
s/ Thomas O. Rice
THOMAS O. RICE
United States District Judge

App. 146
RCW Statutes
RCW 81.84.010
Certificate of convenience and necessity required—Recreation exemption—Service initiation—Progress reports.
(1) A commercial ferry may not operate any vessel or ferry for the public use for hire between fixed
termini or over a regular route upon the waters within
this state, including the rivers and lakes and Puget
Sound, without first applying for and obtaining from
the commission a certificate declaring that public convenience and necessity require such operation. Service
authorized by certificates issued to a commercial ferry
operator must be exercised by the operator in a manner consistent with the conditions established in the
certificate and tariff filed under chapter 81.28 RCW.
However, a certificate is not required for a vessel primarily engaged in transporting freight other than vehicles, whose gross earnings from the transportation of
passengers or vehicles, or both, are not more than ten
percent of the total gross annual earnings of such
vessel.
*

*

*

App. 147
RCW 81.84.020
Application—Hearing—Issuance of certificate—
Determining factors.
(1) Upon the filing of an application, the commission shall give reasonable notice to the department, affected cities, counties, and public transportation
benefit areas and any common carrier which might be
adversely affected, of the time and place for hearing on
such application. The commission may, after notice and
an opportunity for a hearing, issue the certificate as
prayed for, or refuse to issue it, or issue it for the partial exercise only of the privilege sought, and may attach to the exercise of the rights granted by the
certificate any terms and conditions as in its judgment
the public convenience and necessity may require; but
the commission may not grant a certificate to operate
between districts or into any territory prohibited by
RCW 47.60.120 or already served by an existing certificate holder, unless the existing certificate holder has
failed or refused to furnish reasonable and adequate
service, has failed to provide the service described in
its certificate or tariffs after the time allowed to initiate service has elapsed, or has not objected to the issuance of the certificate as prayed for.
(2) Before issuing a certificate, the commission
shall determine that the applicant has the financial resources to operate the proposed service for at least
twelve months, based upon the submission by the applicant of a pro forma financial statement of operations. Issuance of a certificate must be determined

App. 148
upon, but not limited to, the following factors: Ridership and revenue forecasts; the cost of service for the
proposed operation; an estimate of the cost of the assets to be used in providing the service; a statement of
the total assets on hand of the applicant that will be
expended on the proposed operation; and a statement
of prior experience, if any, in such field by the applicant. The documentation required of the applicant under this section must comply with the provisions of
chapter 5.50 RCW.
(3) In granting a certificate for passenger-only
ferries and determining what conditions to place on
the certificate, the commission shall consider and give
substantial weight to the effect of its decisions on public agencies operating, or eligible to operate, passengeronly ferry service.
(4) Until July 1, 2007, the commission shall not
accept or consider an application for passenger-only
ferry service serving any county in the Puget Sound
area with a population of over one million people. Applications for passenger-only ferry service serving any
county in the Puget Sound area with a population of
over one million pending before the commission as of
May 9, 2005, must be held in abeyance and not be considered before July 1, 2007.

App. 149
WAC REGULATIONS
WAC 480-51-020
Definitions.
For the purposes of these rules, the following definitions shall apply:
(1) The term “commercial ferry” means every corporation, company, association, joint stock association,
partnership and person, their lessees, trustees or receivers, appointed by any court whatever, owning, controlling, leasing, operating or managing any vessel
over and upon the waters of this state.
(2) The term “certificated commercial ferry”
means a person required by chapter 81.84 RCW to obtain a certificate of public convenience and necessity
before operating any vessel upon the waters of this
state.
(3) The term “common carrier ferry vessel”
means a vessel primarily engaged in transporting
freight other than vehicles, whose gross earnings from
the transportation of passengers and/or vehicles are
not more than ten percent of the total gross annual
earnings of such vessel.
(4) The term “vessel” includes every species of
watercraft, by whatever power operated, for public use
in the conveyance of persons or property for hire over
and upon the waters within this state, excepting all
towboats, tugs, scows, barges, and lighters, and excepting rowboats and sailing boats under twenty gross tons

App. 150
burden, open steam launches of five tons gross and under, and vessels under five tons gross propelled by gas,
fluid, naphtha, or electric motors.
*

*

*

(7) The term “for hire” means transportation offered to the general public for compensation.
*

*

*

(10) The term “person” means any natural person or persons or any entity legally capable of taking
any action.
*

*

*

WAC 480-51-025
General operation.
(1) Commercial ferries must comply with all pertinent federal and state laws, chapter 81.84 RCW, and
the rules of this commission.
(2) No certificated commercial ferry shall provide
service subject to the regulation of this commission
without first having obtained from the commission a
certificate declaring that public convenience and necessity require, or will require, that service.
*

*

*

App. 151
WAC 480-51-030
Applications.
(1) Any person desiring to operate a commercial
ferry which is required by the provisions of chapter
81.84 RCW to be certificated, to acquire a controlling
interest in, or to acquire by transfer any certificate,
shall file with the Washington utilities and transportation commission an application for a certificate of public convenience and necessity on a form furnished by
the commission. Applications shall include, but are not
limited to the following:
(a)

Pro forma financial statement of operations;

(b)

Ridership and revenue forecasts;

(c)

The cost of service for the proposed operation;

(d) An estimate of the cost of the assets to be
used in providing service;
(e) A statement of the total assets on hand of the
applicant that will be expended on the proposed operation; and
(f ) A statement of prior experience, if any, in
providing commercial ferry service.
(2) Certificate holders wishing to issue stocks
and stock certificates, or other evidences of interest or
ownership, and bonds, notes, and other evidences of indebtedness and to create liens on their property in this
state shall comply with chapter 81.08 RCW, as
amended, and with all pertinent commission rules.

App. 152
(3)

Application fees:

Original application for certificate......... $200.00
Application for extension of certificate .... 200.00
Application to transfer a certificate ......... 200.00
Application for issuance of a duplicate
certificate ...................................................... 3.00
Application for temporary certificate ...... 200.00

WAC 480-51-040
Notice of application—Protests—Contemporaneous applications.
(1) The commission shall send a notice of each
application for certificated commercial ferry service
and each application to operate vessels providing excursion service, with a description of the terms of that
application, to all persons presently certificated to provide service; all present applicants for certificates to
provide service; the department of transportation; affected cities and counties; and any other person who
has requested, in writing, to receive such notices. Interested persons may file a protest with the commission within thirty days after service of the notice. The
protest shall state the specific grounds for opposing the
application and contain a concise statement of the interest of the protestant in the proceeding. A person
who is eligible to file a protest and fails to do so may
not participate further in the proceeding in any way,
unless it can be demonstrated that failure to file a

App. 153
protest was due to an omission by the commission in
providing proper notification of the pending application.
(2) If any person wishes to seek authority which
overlaps, in whole or in part, with that sought in any
pending application, it must apply for that authority
within thirty days following mailing of the notice of filing of the initial application in order for the applications to be considered jointly. During the thirty-day
period, pending applications will be on file and available for inspection in the commission’s headquarters office in Olympia.
(3) The commission may consolidate overlapping
pending applications, pursuant to WAC 480-07-320, for
joint consideration.
(4) Overlapping applications which are not filed
within thirty days of the initial application will not be
jointly considered with the initial application and will
not be decided until after the conclusion of proceedings
resolving the initial application and any other application qualifying for joint consideration.
(5) The commission may consider and decide, on
any schedule, portions of an overlapping application
when:
(a) The portions to be heard do not overlap a
prior pending application; and
(b) The overlapping portions may appropriately
be severed from the portions to be heard.

